<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2021</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2021

                              ----------                              


                       WEDNESDAY, MARCH 11, 2020

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Richard Shelby (chairman) 
presiding.
    Present: Senators Shelby, Collins, Murkowski, Hoeven, 
Durbin, Murray, Reed, and Baldwin.

                         DEPARTMENT OF DEFENSE

                         Department of the Navy

                     Office of the Secretary

STATEMENT OF HON. THOMAS B. MODLY, ACTING SECRETARY


             opening statement of senator richard c. shelby


    Senator Shelby. The subcommittee will come to order. I am 
pleased to welcome our distinguished panel to consider the 
president's fiscal year 2021 budget request for the Navy and 
Marine Corps.
    Today the committee will hear from the honorable Thomas 
Modly, the Acting Secretary of the Navy, Admiral Michael 
Gilday, the Chief of Naval Operations, and General David 
Berger, the Commandant of the Marine Corps. Gentlemen, thank 
you for appearing before the committee today, and thank you, 
most of all, for your service. The Defense Department's budget 
request for fiscal year 2021 is $705.4 billion and complies 
with the Bipartisan Budget Act of 2019.
    The request continues its focus on the National Defense 
Strategy by prioritizing resources to ensure that our military 
can compete, deter, and win in the 21st century against near 
peer adversaries such as Russia and China, if called upon. 
Subsequent to the president's budget submission, the Department 
of Defense delivered additional funding requests for unfunded 
requirements totaling nearly $20 billion, funding requirements 
not included in the 2020 budget request. For the Navy and 
Marine Corps, these unfunded requirements amount to $6 billion. 
In reviewing the base budget request, along with the requests 
to fund additional requirements, the committee is interested in 
hearing how these proposals build on previous investments, Mr. 
Secretary, in modernization and lethality.
    We also want to hear how the exclusion of these additional 
requirements impacts your ability to prepare, plan, and execute 
your mission requirements. With only a modest increase in the 
fiscal year 2021 budget, the appropriations committee and 
Congress have a difficult task ahead. We will have to 
prioritize resources and make difficult tradeoffs as we work to 
ensure that our national security needs, including those 
resourced outside the Department of Defense, will be met.
    We appreciate your input as we weigh these.
    [The statement follows:]

            Prepared Statement of Senator Richard C. Shelby

    Good morning, the Subcommittee will come to order. I am 
pleased to welcome our distinguished panel to consider the 
President's fiscal year 2021 budget request for the Navy and 
Marine Corps.
    Today the Committee will hear from The Honorable Thomas 
Modley, the acting Secretary of the Navy; Admiral Michael 
Gilday, the Chief of Naval Operations; and General David 
Berger, the Commandant of the Marine Corps.
    Gentlemen, thank you for appearing before the Committee 
today, and thank you for your service.
    The Defense Department's budget request for fiscal year 
2021 is $705.4 billion and complies with the Bipartisan Budget 
Act of 2019.
    The request continues its focus on the National Defense 
Strategy by prioritizing resources to ensure that our military 
can compete, deter, and win in the 21st century against near 
peer adversaries such as Russia and China.
    Subsequent to the President's budget submission, the 
Department of Defense delivered additional funding requests for 
unfunded requirements totaling nearly $20 billion--funding 
requirements not included in the fiscal year 2021 budget 
request.
    For the Navy and Marine Corps these unfunded requirements 
amount to $6 billion.
    In reviewing the base budget request, along with the 
requests to fund additional requirements, the Committee is 
interested in hearing how these proposals build on previous 
investments in modernization and lethality.
    We also want to hear how the exclusion of these additional 
requirements impacts your ability to prepare, plan, and execute 
your mission requirements.
    With only a modest increase in the fiscal year 2021 budget, 
the Appropriations Committee and Congress have a difficult task 
ahead.
    We will have to prioritize resources and make difficult 
tradeoffs as we work to ensure that our national security 
needs--including those resourced outside the Department of 
Defense--are met.
    We appreciate your input as we weigh these funding 
decisions.
    Now, I turn to Vice Chairman Durbin for any opening remarks 
he wishes to make. Thank you.

    Senator Shelby. Senator Durbin is not here. I hear he is on 
his way.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    Mr. Chairman, I am pleased to join you in welcoming today's 
witnesses, here to discuss the fiscal year 2021 Department of the Navy 
budget request.
    It is the first time that each of the witnesses--Secretary Modly, 
Admiral Gilday, and General Berger--have appeared before this 
Subcommittee, and I look forward to working with you to address the 
bets interests of the sailors and Marines who proudly serve our 
country.
                       budgets and reprogrammings
    As we begin our review of the 2021 budget request for the 
Department of Defense, the good news is that we have a budget deal 
already in place that should allow us to proceed with the work of the 
Appropriations Committee.
    The bad news is that many of the understandings of how the Pentagon 
and Congress have worked together for generations are now unraveling.
    Just 1 month ago, the Trump Administration diverted $3.8 billion in 
military funds to the border wall without the approval of Congress--
even though more than $9 billion of previously transferred funds remain 
unspent.
    The Navy and Marine Corps were among the biggest losers in that 
diversion of funds. Almost $1.5 billion in funding was diverted from 
these two Services--funding that this Committee, and our counterpart in 
the House, decided was necessary to address shortfalls in ships and 
aircraft.
                               oco abuse
    On top of that, the Administration has included another gimmick in 
its defense request. Out of the $69 billion in OCO funding requested 
for the cost of wars overseas, $15 billion is for items that even the 
Pentagon agrees does not belong in the OCO accounts!
    Of this amount, the Navy has $4.3 billion in OCO funds at risk in 
this gimmick. In fact, every single dollar that the Navy budgeted for 
operations of its ships, no matter where in the world they are 
deployed, is requested in OCO.
    The abuse of OCO needs to end--from the failure to keep war costs 
and routine operations separate, to the diversion of $1.6 billion in 
OCO funds to the wall. The ability for the Department of Defense to 
work with Congress is at stake.
                             reform efforts
    While these very serious issues need to be dealt with, I would also 
like to hear from our witnesses today about the reform efforts they are 
working on.
    For example, Secretary Modly, you have announced a ``Stem to 
Stern'' review of the Navy seeking to save $40 billion over the next 5 
years.
    General Berger, I understand you have been doing an in-depth review 
of the future of the Marine Corps.
    Admiral Gilday, I know that you have been working to balance the 
major challenges in shipbuilding, which relates directly to procurement 
reform and many challenges in our industrial base.
                               conclusion
    I look forward to a thorough discussion of these issues, and I 
thank our witnesses for your testimony.

    Senator Shelby. Anybody else have an opening statement? Do 
you have opening statement?
    Senator Reed. No, Mr. Chairman.
    Senator Shelby. Mr. Secretary, we appreciate you, and 
Admiral, General, for being here today. Your written statement 
will be made part of the record in its entirety. You proceed as 
you wish.

               SUMMARY STATEMENT OF HON. THOMAS B. MODLY

    Secretary Modly. Thank you, Chairman Shelby and Vice 
Chairman Durbin when he gets here, Senator Reed, Senator 
Hoeven, other distinguished members of this committee. Thank 
you for your bipartisan efforts on behalf of the sailors, 
Marines, and civilians in the Department of the Navy. It is an 
honor to be here today with Admiral Gilday and General Berger, 
both of whom have demonstrated great commitment to each other 
and to each other's respective Naval service as they have 
worked collaboratively to lead our integrated American Naval 
Force.
    Consistent with that spirit, we have taken a different 
approach to the written testimony this year. As you will see, 
we have submitted one unified document instead of three 
separate statements. Staying ahead in today's rapidly changing 
global and strategic environment demands that our Naval forces 
commit to unified planning, clear-eyed assessments, and 
sometimes some very, very hard choices. In this process, we 
must harmonize competing priorities, sustain our critical 
industrial base, and not allow our maritime competitive 
advantage to erode relative to global competitors, and more 
accurately stated, some very aggressive adversaries who wish to 
hasten our decline as a global force, for liberty and for 
decency.
    In the end, this budget submission is a manifestation of 
the hard choices we had to make this year, but it is centrally 
about the safety, security, and well-being of our sailors, 
Marines, and their families. Ultimately, I ask that you 
recognize that in this submission we could not make trades that 
put our sailors and Marines on platforms and with equipment 
that are not ready for a fight, if a fight is what is required 
of them. While this budget slows our trajectory to a Force of 
355 or more ships, it does not arrest that trajectory.
    You have my personal assurance that we are still deeply 
committed to building that larger, more capable, and more 
distributed Naval Force within the strategically relevant 
timeframe of no more than 10 years. I look forward to working 
with this committee and the entire Congress in the coming 
months as we develop realistic plans to do that. Our budget 
also demonstrates a clear commitment to the education of our 
people as we implement the recommendations of the education for 
sea power study that I led as the undersecretary of the Navy 
over the last couple years.
    We are establishing a Naval Community College for our 
enlisted personnel as part of a bold and unified Naval 
education strategy that recognizes the intellectual and ethical 
development of our people and is critical to our success as a 
Naval Force. We are also stepping up our efforts to meet our 
solemn commitment to our military families through 
significantly more engaged oversight and accountability of our 
public-private venture housing program.
    Finally, I would like the committee to understand that as 
leaders of the Department of the Navy, we are both vocal and 
united in our determination to prevent sexual assault and 
sexual harassment throughout our Force. Every sailor, every 
Marine, and the Department of the Navy civilian deserves 
individual respect, dignity, and protection from this great 
Naval institution.
    We have some work to do in this regard, but you have my 
personal commitment that we take it very, very seriously and we 
are working hard at it every single day. We are grateful to the 
entire Congress for passing this year's Defense Appropriations 
Bill, which enables many of the priorities identified within 
this document. In passing this legislation, you have sent a 
strong signal of support to our people and a very, very stern 
warning to our adversaries.
    We also appreciate the funding stability and predictability 
of the past several years. This has saved money for the 
American taxpayer and given our Force the agility and 
flexibility to address emerging threats while investing in our 
future integrated Naval Force. We urge the committee to do what 
it can to continue the stability so that we can continue to 
implement the reforms and investments required to meet great 
power challenges, protect the maritime commons, and defend the 
United States of America. Thank you for your time, and we look 
forward to your questions.
    Senator Shelby. Admiral.
    Admiral Gilday.
STATEMENT OF ADMIRAL MIKE GILDAY, CHIEF OF NAVAL 
            OPERATIONS
    Admiral Gilday. Chairman Shelby, Vice Chairman Durbin, 
distinguished members of the committee, thank you for the 
opportunity to appear before you today with Secretary Modly and 
Genera Berger. I am also joined today by my wife Linda and our 
son Brian. We are thankful for your enduring support of the 
Navy and Marine Corps team. Three carrier strike groups and two 
amphibious ready groups along with nearly 40 percent of our 
Fleet are deployed around the globe today.
    Your Navy and Marine Corps team needs no permission to 
operate at sea and their power does not rest in any one 
location but rather in their ability to maneuver anytime, 
anywhere the seas reach, operating across the spectrum of 
Military operations. Without question, our sailors remain our 
most important asset.
    We have taken a hard look at what they need to be 
successful, the equipment and the training that they need to 
fight and win, as well as the support required to take care of 
them and their families. Over the past 8 months, we have 
engaged in a deep examination of these issues. Our balanced 
approach in our budget submission provides a Navy ready to 
fight today while committing to the training, maintenance, and 
the modernization to provide a Navy ready to fight tomorrow.
    Naval power is critical to implementing the National 
Defense Strategy, and decisive Naval power requires having a 
ready, capable, and lethal Fleet sized to deter, and if 
necessary, fight and win. Our number one priority is the 
Columbia-class ballistic missile submarine. This request also 
heavily invests in our readiness accounts such as ship and 
aircraft depot maintenance and modernization, manpower, live 
virtual constructive training, steaming days in flying hours, 
and invests in new systems to make our Fleet more lethal, 
including increasing our weapons inventory, bolstering the 
range and the speed of those weapons, exploring directed energy 
weapons, and incorporating new technologies like hypersonics.
    This request grows our Fleet in size, generating 
sustainable, capable capacity. Importantly, Naval power is not 
just determined by what we fight and operate with, but how we 
operate and fight. We are pursuing an integrated approach with 
General Berger and our Marine Corps Shipmates and Fleet 
operations and exercises in war games in an experimentation. 
The net result, we believe, is integrated American Naval power.
    I could not ask for a better partner in this endeavor than 
our Commandant, General Berger. Thank you all for your support, 
which has allowed us to make significant gains in readiness and 
lethality already. It allows us to answer to the Nation's call 
every day. On behalf of your active duty reserve and civilian 
sailors and their families who serve our Nation, I thank you 
and I look forward to your questions.
    Senator Shelby. General Berger. Welcome.
STATEMENT OF GENERAL DAVID H. BERGER, COMMANDANT, U.S. 
            MARINE CORPS
    General Berger. Chairman Shelby, Vice Chairman Durbin, 
distinguished members of the committee, I appreciate the 
opportunity to testify on the posture of your Marine Corps and 
our priorities for the future. I will start by echoing 
Secretary Modly and Admiral Gilday's thanks for the timely 
funding as well as your enduring commitment to Marine. Sailors, 
and their families through efforts like last year when the 
hurricane recovery, which you responded, helped us all the way 
through revisions to the private-public venture housing 
program. Your bipartisan support, critical to ensure that we 
continue to prioritize people, as the CNO (Chief of Naval 
Operations) mentioned, is our greatest resource.
    Thanks to predictable funding over the past few years, the 
Marine Corps has made significant progress restoring both 
availability and readiness. We are now at an inflection point. 
We have to pivot now toward modernization while sustaining the 
readiness that this committee has resourced. This pivot cannot 
wait, in my opinion, until next year or the following. We must 
move now or risk overmatch in the future by an adversary. And 
that is a risk we will not take.
    As the National Defense Strategy directs and Secretary 
Modly recently emphasized in his first vector to all hands, we 
must pursue urgent change at a significant scale. Marines have 
always, since when it is time, moved out smartly. We don't 
hesitate. This is that time. Realizing the bold direction of 
our strategic guidance requires acknowledging fundamental 
change in the operating environment, and how we must organize, 
train, and equip the Force.
    I believe most leaders recognize that significant changes 
are required, yet the scope and pace of necessary change is 
seemingly at odds with some historical resource allocations and 
some of our major acquisition programs, which predate the 
National Defense Strategy. This budget submission marks the 
beginning of a focused effort to better align resources that 
you provide with our strategic objectives.
    Our future budget submissions will build on these 
investment decisions with informed recommendations for Force 
Design modifications and adjustments to our programs of record. 
Together, in partnership with my teammate, Admiral Gilday and 
under the direction of Secretary Modly, we are committed to 
delivering the integrated Naval and Fleet Marine Forces our 
Nation requires.
    As always, I welcome the opportunity to discuss our 
findings along the way and keep you and your staffs informed as 
we progress. We will be frugal with the resources we are given. 
We will ask for no more than we need. With Congress's 
commitment and support, we will ensure that your Marines 
continue to have every advantage when we send them into harm's 
way. I look forward to your questions, sir.
    [The statement follows:]
Prepared Statement of Hon. Thomas B. Modly, Admiral Michael M. Gilday, 
                      and General David H. Berger
    Chairman Shelby, Vice Chairman Durbin, distinguished Members of the 
Subcommittee, thank you for your bipartisan efforts to build the 
strength and readiness of our integrated naval force. As the nation's 
forward-deployed, global maneuverable team, the entire Department of 
the Navy (DON)--Sailors, Marines and Civilians--must be ready to 
respond as a single unit wherever and whenever there is need. We must 
deliver the personnel, platforms, and operational capability necessary 
to secure vital sea lanes, stand by our allies, and protect the 
American people.
    Accomplishing this in today's global strategic environment demands 
planning, clear-eyed assessments, and hard choices. We must design a 
future integrated naval force structure, advance our intellectual 
capacity and ethical excellence, and accelerate the digital 
modernization of our force. That's why this budget prioritizes a 
strategy-driven, balanced approach to investment, informed by 
relentless examination of our present capabilities and realities. It 
builds on prior investments while adjusting fire where necessary to 
deliver greater efficiency and effectiveness. It sustains the 
industrial base, and maintains our competitive advantage. Overall, this 
budget will deliver a more integrated, survivable, and affordable 
future force.
    Our testimony details the combined perspectives of the DON civilian 
and military leadership. We begin with the challenges we face, followed 
by our overall strategic vision, then the specific priorities of the 
Navy and Marine Corps to meet the requirements of this vision and 
execute the National Defense Strategy (NDS), which remains the 
guidepost for all of our decisions. The Department of the Navy sustains 
progress along each of the NDS lines of effort through adequate and 
timely funding from our partners in Congress. We are proud to work in 
partnership with this Committee in defense of our Nation, and look 
forward to that work continuing.
    The Global Challenge
    The reemergence of long-term great power competition, the evolving 
character of that competition, and the accelerating advancements in 
technology are spurring a period of transformation in the strategic 
environment, requiring us to adapt our integrated naval force design 
and operating concepts to new realities. As the National Defense 
Strategy states, ``there can be no complacency--we must make difficult 
choices and prioritize what is most important.''
    Thus far this century, terrorist groups and rogue states have 
dominated our perception of the threat environment. These threats were 
lethal, but did not pose an existential threat to our national 
security. China and Russia present a different challenge, as each 
continues to develop sophisticated military capabilities backed by 
sizable economies. Their investments in surface, air, and undersea 
platforms have significantly increased the potential for kinetic 
conflict, while the leadership of both nations demonstrate increasing 
contempt for international law and the rules-based order that ensures 
the prosperity and security of all nations.
    China's battle fleet has grown from 262 to 335 surface ships over 
the last decade, and China's commercial shipbuilding grew over 60 
percent year over year from 2007-2017. It continues to take coercive 
actions against its neighbors and violate international law in the 
South China Sea.
    Russia's irresponsible aggression continues on NATO's eastern and 
northern flanks as well as the Black Sea, the Arabian Gulf, and the 
broader Indo-Pacific. China also invests heavily in submarines with 
advanced stealth capabilities and the platforms and infrastructure 
needed to dominate the emerging Arctic.
    Meanwhile, warfare has evolved to new battlefields including 
cyberspace. China and other dangerous actors like Iran brazenly target 
the command, control, and communications (C3) systems and logistics 
networks on which our integrated naval force depends. China's nefarious 
activity also includes widespread cyber theft of intellectual property 
and sensitive information targeting our entire government, our allies, 
and our industry partners throughout the acquisition and supply chain.
    As we prepare for the maturing threat of great power competition, 
we must remain on high alert for the actions of malign regimes such as 
Iran, and the continual asymmetric threat to our people, allies, and 
interests posed by non-state actors such as ISIS. In a recent example 
highlighting the impact of our integrated naval force, 5th Fleet and 
CTF-51/5 responded to crisis earlier this year by securing the U.S. 
Embassy in Baghdad with the Special Purpose Marine Air-Ground Task 
Force--Crisis Response--Central Command (SPMAGTF-CR-CC) and 
simultaneously coordinated additional naval support in theater. We 
stand ever-prepared to respond with every part of our integrated force 
to instability, terrorist threats, and rogue states throughout the 
world.
    Our integrated naval force also has a critical role in preserving 
the infrastructure and access that powers the increasingly 
interconnected and interdependent United States and global economies. 
Our Nation's continued prosperity and economic growth increasingly 
depend on open and secure access to the sea lanes. Maritime traffic has 
increased four-fold over the last two decades, with 90 percent of all 
global goods transiting shipping lanes, including new trade routes 
opening through the Arctic. Meanwhile, the undersea cables that power 
the digital economy and the global communications framework represent 
an overlooked but critical point of vulnerability for American 
interests at home and abroad. Overall, the maritime system is more 
heavily used, more stressed, and more contested than ever before--and 
it has never been more important.
    A dominant naval force is central to the effective execution of the 
National Defense Strategy in a changing world. But as we address these 
external concerns, we must also confront our business process 
challenges. These include a shrinking industrial base and vulnerable 
supply chain, inefficiencies due to legacy business operations, and 
antiquated acquisition processes which together result in increased 
costs and delays for both new development and overall maintenance. And 
despite the best efforts of this Committee, we must also continually 
prepare for the challenge posed by funding uncertainty.
    Most importantly, we must never forget that our greatest resource 
is the men and women who wear the uniform, who comprise our civilian 
workforce, and the families that serve alongside them. We are committed 
to ensuring our Sailors, Marines, and Civilians are trained and 
equipped to execute the mission and return home safely, and that their 
families are provided with the housing, medical attention, and 
education they need.
    As detailed in the following pages, our integrated naval force has 
made significant strides in addressing the external and internal 
challenges we face. But we can never be satisfied, and will always 
press forward with a sense of urgency to deliver the people, the 
platforms, and the capabilities necessary to protect the American 
people and our interests around the world.
       meeting the challenge with an agile integrated naval force
    To meet these challenges, the NDS requires a dominant, agile, 
accountable, and globally positioned integrated naval force. We will 
plan, resource, and execute the NDS with specific focus on the 
following:
Integration
    We must transform from our present two-service model into one true 
expeditionary force in readiness, with the Navy and Marine Corps 
operating together with integrated planning, design, training, and 
execution at every echelon and in every domain. This priority has been 
emphasized in messages to the fleet and planning documents by each 
member of DON leadership and is a guiding principle for every aspect of 
our planning and resourcing.
Velocity
    Our integrated naval force must maintain the readiness and 
lethality to respond anywhere at any time. We will achieve this through 
a global operating model that ensures the continual posture, presence, 
and readiness of our personnel and platforms. We will dominate the 
fight to get to the fight, with forward basing, distributed maritime 
capability, fully integrated logistics, and continual aviation 
readiness. We also must increase the speed at which we do everything 
across the Department to match the rapid changes and unpredictability 
of the future environment.
Collaboration
    A primary line of effort in the NDS is to build and maintain a 
robust constellation of allies and partners. Our integrated naval force 
is committed to training, operating, and learning alongside our allies 
and partners in every part of the world through every day interaction 
and regular operational exercises such as Trident Juncture, Talisman 
Saber and Rim of the Pacific (RIMPAC). Afloat and ashore, our allies 
and partners are crucial force multipliers and enablers of our global 
reach, particularly in evolving regions such as the Indo-Pacific and 
the Arctic. We must also break down organizational silos across our own 
Department and build more collaborative relationships with the other 
Military Departments and the Interagency to support whole of government 
approaches to security that will become more prominent in the future.
Visibility
    While cutting edge ISR, cyber, aviation, and undersea assets ensure 
our global reach and awareness, there is no substitute for sustained 
presence and engagement. Through frequent port visits, stand-in forces, 
and Freedom of Navigation Operations (FONOPS), we will continue to 
demonstrate our enduring commitment to the defense of our people and 
interests, as well as our readiness and will to stand alongside our 
allies and partners. We will also focus on increasing transparency and 
information sharing in order to facilitate more rapid, and informed 
decisions.
Innovation
    We will transform the strategic space to our advantage through next 
generation research and development, industry partnerships, and naval 
education. We are embracing the challenge of next generation technology 
and determined to dominate the design, development and effective 
deployment of major technological breakthroughs such as hypersonic 
weapons. We are making the key investments and forging the key 
partnerships to own the next ``Sputnik Moment.'' We will become more 
comfortable with trying new ways of doing business, and more forgiving 
of incremental failures made in support of change and progress.
Adaptability
    Where we cannot change the strategic environment through 
innovation, we will adapt to it quickly and efficiently through agile 
thinking and nimble platforms. This will allow us to protect our people 
and interests through unpredictable shifting security environments, and 
ensure the broadest range of options are available to the Commander in 
Chief and the Secretary of Defense. We will invest in an adaptable 
force structure, foster adaptable approaches to problems, and nurture 
the development of adaptable people comfortable with uncertainty and 
unpredictability.
Humility
    We will address our challenges with a sense of humility, taking 
full account of the deficiencies we have, but with confidence that they 
can be corrected. We will be realistic in our planning and budgeting to 
assure we do not trade growth for readiness. We will not allow 
ourselves to build a hollow force, but we will be honest with the 
Congress and the American people about what we see the areas in which 
we need their full support in order to build the integrated naval force 
that is required to maintain the Nation's security.
      gray hulls: building and maintaining the right capabilities
    In order to meet the many demands of the global strategic 
environment and ensure our warriors are always prepared to dominate the 
fight, we must design a future integrated naval force structure aligned 
to the threats we face, both today and in the future. This budget 
prioritizes the readiness of those platforms and systems that will 
enable the United States to maintain and expand its competitive edge 
over all adversaries while we examine ways to grow the fleet in a 
reasonable timeframe, all while remaining responsible stewards of 
American taxpayer dollars.
Divesting from 20th Century Legacy Systems
    In keeping with the DoD-wide priority to modernize from low-value 
legacy systems to fund combat-overmatch lethality tuned to the 
challenge of great power competition, this budget divests from multiple 
legacy or surge-based capabilities that do not align with the 
requirements of the NDS. It shifts capabilities from a 
counterinsurgency focus to systems that enable our personnel to exploit 
positional advantage and defend key maritime terrain for persistent 
forward sea control and denial operations. This budget also aligns with 
Secretary Esper's commitment to become more of a ``fast follower'' of 
commercial technology, and to dominate the future development and 
employment of artificial intelligence (AI) and hypersonics funding.
Building to a 355 Navy
    Thanks to the bipartisan efforts of this committee, the goal of a 
355 ship Navy is now the law of the land. We will be working with the 
Office of the Secretary of Defense to develop a consensus perspective 
on this future force structure through robust analysis and wargaming 
and the inclusion of expertise from our academic institutions (Naval 
War College, Naval Postgraduate School, Marine Corps University) and 
independent naval experts. This process will be iterative and 
continuous. In order to meet the Nation's national security needs and 
remain within budget constraints, we must consider how to shift costs 
away from high-end platforms to a larger number of smaller, but still 
highly capable ships. Such a shift will allow broader presence, reduced 
manning, and longer reach through a significant increase in hypersonic 
weapons, greater stealth, and advanced anti-ISR capabilities.
    We are also considering how unmanned surface and subsurface 
platforms should figure into our force mix. These platforms will not 
only allow us to distribute and conceal lethality, but to do so at a 
reduced cost and greater integration and interdependency with the Joint 
Force. While some perspectives vary on the ultimate composition of this 
future force mix, there is clear agreement that certain new classes of 
ships that currently do not exist today must be designed and built 
rapidly in the next 10 years. The exact mix will be the subject of 
continuous evaluation and analysis, but it will not impede our 
immediate investment in the development and initial production of these 
new vessels.
Fielding a Ready, Relevant, Responsive Integrated Naval Expeditionary 
        Force
    A key aspect of our transformation will be a shift to greater naval 
expeditionary force capabilities and a restoration of the Fleet Marine 
Force. The potential for rapid change in the global environment, 
particularly in the Indo-Pacific, demands a rebalance from the current 
Marine Corps force land and surge based posture to a more distributed, 
rapidly deployable and fully integrated force. This budget continues 
investment in key Marine Corps development programs such as the Ground 
Based Anti-Ship Missile, Ground Based Air Defense, CH-53K helicopter, 
and F-35B Joint Strike Fighter, supporting Marine Corps efforts to 
enhance Long Range/Precision Fires, Protected Mobility/Enhanced 
Maneuver, and Air Defense.
Generating Readiness and Sustainability
    This budget optimizes Marine Corps readiness to achieve 80 percent 
serviceability of reportable expeditionary equipment, and implements 
the Commandant's Infrastructure Reset Strategy so our warriors are 
always prepared and present to defend our people, our interests, and 
our allies. It sustains the shipyards and supporting industrial base to 
maximize repair and modernization capacity and minimize turnaround and 
downtime. To provide continual presence and readiness for the fleet, 
this budget funds 58 days underway while deployed and 24 days underway 
while non-deployed per quarter, with an increase of 6.5 percent over 
last year for ship operations funding.
    Leveraging private sector best practices through the Naval 
Sustainment Strategy, this budget continues to invest in Aircraft Depot 
Maintenance to achieve the goal of 80 percent mission capable rates for 
strike fighter aircraft. This budget also increases the Flying Hour 
program by 5.8 percent and aligns the funding for air operations to the 
mission capable rates to ensure that all squadrons deploy combat-ready.
Producing Next Generation Superiority
    The COLUMBIA-class submarine program enters the first year of 
incremental procurement funding for the lead ship, and this budget 
resources the program for on-track delivery to meet the first 
deployment in 2031, with a second ballistic missile submarine starting 
in fiscal year 2024 and serial production begins in fiscal year 2026, 
furthering the recapitalization of our Strategic Nuclear Deterrent.
    Additionally, we continue to resource the development of the Fast 
Frigate, and Future Large Surface Combatant, both of which will greatly 
enhance our distributed capabilities and forward deployed lethality. 
This budget also continues advanced capabilities in the F-35B and F-35C 
Joint Strike Fighter for both the Navy and Marine Corps. We also 
maintain investment in weapons development to provide for longer range 
and hypersonic weapons, with increasing investments in areas like 
Conventional Prompt Strike and our Standard Missile family. Finally, we 
will look to Congress for support in our effort to expand training and 
testing opportunities through range expansion aboard Naval Air Station 
Fallon in order to fully develop and train with these lethal 
capabilities.
             gray zones: winning the fight before the fight
    The future battlespace extends well beyond the field of kinetic 
action. Ensuring our warriors are the best equipped and prepared in the 
world starts with accelerating our digital modernization across the 
force, streamlining our business processes and maintaining the highest 
level of efficiency. Agile and accountable naval forces are impossible 
without agile and accountable business processes that support them. 
With the support of this budget submission, the following are just a 
few of the reforms we are implementing throughout our integrated naval 
force to dominate the future fight, from the E-Ring to the front lines.
Executing the Business Operations Plan
    The President's Budget Submission will allow us to accelerate our 
business process modernization across the naval enterprise through the 
use of advanced digital tools and technologies to substantially improve 
performance, speed, accuracy, and security. The DON Business Operations 
Plan (BOP) details the steps we are taking to transform our business 
operations in alignment with the NDS, with six, twelve, eighteen, and 
twenty-four month milestones to provide DON leadership the ability to 
better manage and monitor progress on the path to a more agile and 
accountable business enterprise. The plan provides clear direction for 
military and civilian leaders throughout the DON to maximize 
investments and effort in alignment with the NDS. It also provides 
greater transparency and oversight opportunities for our partners on 
this Committee as well as the American people.
Transforming the Digital Enterprise
    Information management is a core strategic function of the DoN. 
Cyber security, data strategy and analytics, AI, and quantum computing 
have all combined to create massive opportunities--as well as 
vulnerabilities--across our entire enterprise. A critical element of 
mission readiness is the ability of our personnel to have access to 
relevant, reliable, and secure global communications and information, 
at every echelon and in every domain. In fiscal year 2019 we 
consolidated information management functions in a restructured Office 
of the Chief Information Officer (CIO), driving transformation and 
operational capability through the following lines of effort:
  --Modernize DON infrastructure from its current state of fragmented, 
        non-performant, outdated, and indefensible architectures to a 
        unified, logical, modern infrastructure capable of delivering 
        an information advantage.
  --Innovate operational capabilities through technologies like 5th 
        Generation (5G) wireless and AI, and accelerate software 
        development through Digital Innovation Centers, leveraging 
        private sector and industry best practices to fuel our digital 
        transformation.
  --Defend networks and assets through continuous active monitoring 
        across the enterprise to increase cyber situational awareness. 
        We will institute a security culture where a personal 
        commitment to cybersecurity is required to gain access to the 
        network. We will transform from a compliance-centered culture 
        to one of constant readiness, and we will work with our 
        industry partners to secure naval information wherever it 
        resides.
Managing Finance and Operationalizing the Audit
    We have completed the second full scope financial audit of the 
entire DoN, revealing more opportunities to improve our financial 
management and business processes as well as many other aspects of our 
enterprise. The financial audit is the lynchpin to both monitoring and 
catalyzing improved business operations performance. Our senior 
leadership has repeatedly emphasized to all personnel that active 
participation in the audit process is not just a financial exercise, 
but a management tool that must involve the combined effort of all of 
our personnel in order to identify ways to improve our organization's 
effectiveness and accountability.
    We are on track within the next 2 years to achieve qualified 
financial audit opinion for the Marine Corps, with an unqualified 
opinion the following year. This will make the Marine Corps the first 
military service in the Defense Department to receive such an opinion 
in the history of the United States. Achieving this for the Navy will 
be more challenging, but we continue to see improvements year to year. 
The DON has also conducted a Zero-Based Budget review designed to 
ensure alignment of goals and resources, achieve full value for every 
taxpayer dollar, and increase transparency in our resource allocation 
process. Finally, we have implemented Performance-to-Plan reviews that 
provided a fleet-focused and data-driven approach, accelerating 
readiness.
Modernizing Naval Supply Chain and Logistics
    Our integrated naval force requires unified logistics operations 
and secure, reliable supply chains in order to maintain the 
distributed, forward maneuverable force demanded by the global 
strategic environment. Through the audit and other reform efforts, we 
have identified multiple areas where our supply chain and logistics 
processes are disjointed and divided, with areas of poor visibility and 
accountability that impact our forward inventory and readiness.
    These efforts have also revealed areas where greater integration 
between the services is needed and where our multiple supply chains 
require consolidation and optimization. We are developing a long-term 
strategy to address these deficiencies, beginning with a new modern 
vision for future integrated naval logistics and supply chain 
management, and will proceed with executing reforms consistent with 
this vision this year.
                   gray matter: developing our people
    We cannot solely define American seapower by ship counts and high-
end systems. In the end, our core strength will always reside in the 
gray matter between the ears of our people as much as it does in the 
gray hulls out in our fleet. Recruiting, retaining, educating and 
caring for the best military and civilian force possible has always 
been and will always be our greatest edge against all competitors. We 
will meet this challenge through transformative investments in 
education, greater connections with partners and allies, a competitive 
human capital strategy, a recommitment to high quality housing for our 
naval families, and a determination to eliminate the scourge of sexual 
harassment and assault throughout our total force.
Prioritizing Learning as a Strategic Advantage
    As stated in the 2018 Education for Seapower (E4S) report, the 
intellectual capability of our Navy and Marine Corps team and our 
ability to operate as a continuous learning organization will serve as 
the enduring foundation of our credible deterrent to war. In the year 
since the E4S report was completed, we have established the office of 
the Chief Learning Officer (CLO) and moved quickly to introduce 
sweeping changes in the structure, integration, and prioritization of 
naval education. These changes include:
  --U.S. Naval Community College--Our highest priority is to create a 
        new United States Naval Community College (USNCC) that offers 
        advanced, online technical and analytic education to our 
        enlisted force in critical areas like IT, cyber, and data 
        science. Free for every Sailor and Marine, the USNCC will fill 
        a long-neglected gap in our educational continuum and provide a 
        recruiting and retention incentive through degree-granting 
        relationships with major four-year public and private 
        universities across the nation.
  --Naval Education Strategy 2020--Our recently released Naval 
        Education Strategy 2020 is the first ever comprehensive 
        education strategy for our integrated naval force. The strategy 
        will lay out a clear road map to develop a lifelong learning 
        continuum for our entire force, reform our personnel systems to 
        better recognize and reward the value of education, and invest 
        in our schools and education programs.
  --Strategic Education Requirement for Flag and General Officers--The 
        opportunity to wargame future scenarios and technologies, study 
        naval strategy and debate alongside peers is vital experience 
        for the leaders who will guide our integrated force through the 
        future strategic landscape. That is why we are now requiring 
        in-residence strategic studies graduate education for promotion 
        to Flag or General Officer rank.
Recruiting, Curating and Retaining the Best Talent
    This budget provides the resources to fuel a new human capital 
strategy to better access and curate best-in-class talent for our Navy, 
Marine Corps, and civilian work force. We developed this strategy 
leveraging leading private sector business practices designed for the 
new economy. Initial pilot programs in support of this strategy will 
begin this year. The Navy's Sailor 2025 initiative and comparable 
initiatives in the Marine Corps have contributed to successful 
recruiting and retention in what should be a very challenging market. 
Through a combination of non-monetary, quality of life, and customer 
service programs, we are increasing our responsiveness to the needs of 
the individual warfighter and their family, making continued service a 
viable and attractive option. And we are increasing avenues for 
civilians with prior service through the Targeted Reentry Program, and 
expanding opportunities to serve in meaningful civilian capacities. We 
are also increasing opportunities for our personnel to learn, operate, 
and innovate alongside partners in the private sector, across the joint 
force, and alongside our partners and allies.
Setting Our People Up for Success
    Through USMC Global Force Management, we will continue to field an 
elite Active and Reserve Marine force, maintaining a 1:2 deployment to 
dwell ratio while working towards a necessary 1:3 ratio to preserve 
constant readiness and availability of personnel while also reserving 
time for training, refitting and family support. This budget increases 
funding and training for Marine Forces Pacific in support of the 
Commandant's Planning Guidance and the NDS. The DON has also 
implemented over 100 of the recommendations from the Readiness Reform 
and Oversight Council (RROC) in order to maximize opportunities for our 
personnel to succeed. Among many other changes, we have increased 
opportunities for shipboard certification and skills enhancement, while 
adjusting manning schedules to maximize safety and improve quality of 
life and professional effectiveness for our personnel while underway.
Standing Up for Our Military Families
    Our people must be confident that their leadership will look out 
for their interests and advocate tirelessly for their safety and well-
being. Unfortunately, as Congress correctly identified last year, we 
have not always lived up to that responsibility, particularly with 
respect to our administration and oversight of the Military Privatized 
Housing Initiative (MPHI) program. We are committed to making sure we 
assess, monitor, and remediate issues of concern quickly and 
effectively through active and engaged leadership and reinforced 
Department-level oversight to restore the trust of our residents. Over 
the past year, Navy and Marine Corps leaders reached out to all of our 
Sailors, Marines, and their families to inquire about on-base housing 
concerns and offered home visits to better understand those concerns. 
We are also leveraging technologies such as an app for residents to 
report issues and track their resolution and an Electronic Data 
Warehouse that allows leaders at every level the opportunity to spot 
trends and issues quickly and effectively. This budget also provides 
resources for additional personnel to advocate for resident needs. In 
total, the Navy and Marine Corps housing programs are hiring 277 more 
housing management specialists, housing inspectors, quality assurance 
specialists, and project and business managers.
Combating Sexual Assault and Sexual Harassment
    We are each determined to eliminate the scourges of sexual assault 
and sexual harassment from every part of our force. These behaviors 
stand as a betrayal of those who have stepped forward to serve and of 
every person who wears the uniform, military and civilian. Our Sexual 
Assault Prevention and Response Office (SAPRO) is coordinating 
education, outreach, care and prevention efforts across the force. We 
have reached out to university presidents and other civilian education 
leaders through our first annual symposium held at the U.S. Naval 
Academy in April 2019, as well as regional discussions in New York City 
in September 2019 and in Albuquerque, New Mexico in early February 
2020. We are examining new prevention and education efforts including a 
renewed focus on junior enlisted leaders and the role of alcohol in 
sexual assault and harassment. We will continue to work with this 
Committee to pursue and share the best practices and ideas, 
relentlessly pursuing a future where no Sailor, Marine, or civilian 
teammate ever has to fear for their own safety while protecting us all.
Building a Robust Constellation of Partners and Allies
    As extraordinary as the people of our integrated naval force are, 
we recognize that we cannot meet the global challenge alone. The 
strategic maritime defense partnerships we maintain with our partners 
and allies around the world extend the reach and power of our force, 
but more importantly they underscore the importance of cooperation and 
coordination in maintaining the rules-based international order that 
enables so much of our global prosperity and security. Our personnel 
regularly train and operate alongside their foreign counterparts, test 
the interoperability of our systems, and build our collective 
readiness. Operational exercises, international port calls, joint 
Marine force training, aviation training and other interactions all 
build the personal contact that generates understanding and respect 
across national and functional lines. Our personnel know that through 
their service they are front-line diplomats for our Nation, promoting 
through their professionalism and dedication the connections that 
strengthen our collective security and cultivate shared ideals that 
send the message that the United States is a partner worth having.
                          u.s. navy priorities
    The President's fiscal year 2021 budget request seeks nearly $160 
billion for the U.S. Navy, an investment that will continue the 
momentum built since the release of the National Defense Strategy 
(NDS). The competition articulated in the NDS will continue for the 
foreseeable future and demands purposeful action over a long time 
horizon. As a result, consistent, sustained, and predictable funding is 
critical to ensure that taxpayer investments already made in the Navy 
are fully realized. We are grateful for the predictable funding we have 
received in recent years.
    We are proud of our intensely collaborative effort to deliver 
Integrated American Naval Power to the people we are sworn to defend. 
This integration will sustain the naval forces that our Nation demands 
and our Joint Force expects. This integration will also place the 
United States in the best position to compete and win against the 
pacing threats we face.
    The guiding principle of the Navy's portion of this budget request 
is to deliver decisive naval power, blending readiness, lethality, and 
capacity together to create a naval force that is agile and ready to 
fight today while also committing to the training, maintenance, and 
modernization to ensure the Navy can fight and win tomorrow. This 
budget submission materially advances the efforts that fall under these 
three objectives.
Readiness
    The CNO's initial guidance to the Navy stated, ``Mission One for 
every Sailor is a ready Navy...a Navy ready to fight today.'' The Navy 
must be able to conduct prompt and sustained combat at sea, but current 
readiness also supports the indispensable roles the Navy performs on a 
daily basis: securing American commerce, which is more heavily entwined 
with the seas than ever; telegraphing resolve; and deterring conflict. 
These roles are enduring and timeless, but they are also deeply 
connected to the priorities articulated in the NDS.
    It is important to consider the historical context for this intense 
focus on readiness. The readiness landscape today differs significantly 
from twenty years ago. In 2000, the Navy had 318 battle force ships. 
Today, we have 293 after growing from a recent minimum of 271 battle 
force ships a few years ago. However, the number of deployed ships 
across the timespan from 2000 to today remained roughly constant. 
Today, we have 68 battle force ships deployed around the world. 
Sustaining this level requires many more than that number to deploy 
each year.
    These demands for naval forces have led us to forward deploy a 
greater proportion of the force and significantly increase the length 
of rotational deployments. The extended deployment of the ABRAHAM 
LINCOLN is an example of this trend: her 294-day deployment was the 
longest for an aircraft carrier since the mid-1970s. While her 
extension was the best decision we could offer to support the demand 
for forces, it does not come without consequences. When ships, 
aircraft, and submarines are deployed longer, they require more 
maintenance to return to sea as ready as they were before. Moreover, 
our statistics show that this relationship is sometimes non-linear: 
``surge'' deployments and heavier operational use can exponentially 
increase the time and cost required to recapitalize these valuable 
assets.
    Our approach to implementing the NDS has already led us to guard 
readiness more carefully by ruthlessly prioritizing requests for 
forces. The growth of the Navy over the past several years has also 
increased the denominator in the readiness equation, relieving some 
pressure on the force.
    Yet there is much more to do, and we are committed to finding and 
closing readiness gaps. The American taxpayer and the Congress have 
generously funded ships, submarines, and aircraft, and we owe it to the 
people we are sworn to protect and defend to be good stewards of those 
investments.
    We are committed to funding readiness at the maximum executable 
level. PB-21 makes a strong commitment to current readiness, 
acknowledging the sustained effort required to mitigate the effects of 
decades of intensive use of our ships, aircraft, and submarines. The 
funding requested for individual accounts such as Ship Depot 
Maintenance and Aircraft Depot Maintenance have increased over fiscal 
year 20 enacted levels, reflecting purposeful choices about what we 
need to be ready today.
    The Navy is already moving aggressively to ensure these funds are 
well spent. No reform is too small. Our relentless pursuit of reform 
has already paid dividends: our achievement of 80 percent mission-
capable tactical aircraft this past year is one example. Acknowledging 
the challenges in depot-level maintenance and modernization, the CNO 
has directed Navy leaders to find the key levers of productivity that 
will allow us to deliver depot-level availabilities on time and in 
full. Although there is much to do, we are encouraged by the trends we 
are beginning to see. Our public shipyard workload has led us to 
increase hiring, increasing public shipyard end strength by 16 percent 
from 2013. We are working aggressively to improve estimates of the 
length of time our platforms need to be in maintenance, level-load 
depot-level maintenance across our network of industrial partners, 
better integrate different maintenance organizations within the Navy, 
and utilize predictive analytics. In concert with continued discipline 
in guarding readiness, we believe that we can deliver our platforms in 
maintenance on time and in full. We are also grateful for the strong 
support we received from Congress in our enacted 2020 budget for a 
pilot program for private contractor shipyard maintenance in the 
Pacific, and request that this pilot continue. We value our close 
partnership with industry and recognize that predictability on our part 
will help incentivize our partners to grow, providing critical capacity 
to complement the work in our public shipyards.
    PB-21 robustly funds ship and aircraft operations, another 
essential element of readiness. As previously mentioned, it provides 
for 58 underway days per quarter per ship and bolsters flying hours for 
our aircraft. This directly contributes to readiness by allowing our 
Sailors to train to complex, high-end naval warfare scenarios at sea 
and creating the maritime expertise our Nation expects. While there is 
no replacement for operating at sea, the Navy is working rapidly to 
integrate Live, Virtual, and Constructive (LVC) training into the mix. 
LVC training allows units at all stages of force generation to maximize 
training for high-end warfare, and prevents the degradation of key 
warfighting competencies when platforms are undergoing maintenance.
    This budget request also recognizes the truth that we cannot 
neglect our shore infrastructure in favor of future force structure or 
other priorities without an impact to readiness. This year's budget 
requests the largest amount of funds for Navy shore infrastructure in 
the past 4 years, allowing us to create readiness at sea through 
increased readiness ashore. Congressional support for this request will 
also help the Navy meet its obligations to Sailors and their families, 
increasing the quality of public-private venture housing through 
increased oversight funded by approximately $35 million each year of 
the FYDP, addressing perfluoroalkyl substances (PFAS) contamination 
with $44 million requested for clean-up programs, and rebuilding Navy 
facilities in the wake of recent natural disasters.
    Readiness at sea also depends land-based training ranges, 
especially for aviators and special warfare operators. These include 
the Navy's training center in Fallon, Nevada. Expansion of this range 
is critical to maintaining our readiness today as newer weapons, 
released from distances much greater than those of just a few years 
ago, require a larger safety zone around target areas. Expanding this 
range will allow us to send our Sailors into combat fully prepared, 
providing realistic training and the skills they will need to win. We 
are committed to work with Federal, State, tribal, and local partners 
to do so in a way that addresses the concerns of all.
    Finally, a ready Navy depends on our true asymmetric advantage: our 
people. PB-21 increases active-duty manning to keep our human capital 
synchronized with our force structure, raising our end strength by 
7,300 Sailors. This reduces gaps and shortfalls at sea, directly 
contributing to readiness. Manning ships, aircraft, and submarines at 
sea remains a top priority, and we will continue to operate effectively 
and sustainably over time as the battle fleet grows. The budget also 
sustains the suite of efforts under the Sailor 2025 initiative and 
continues to transform our Manpower, Personnel, Training and Education 
(MPT&E) system to provide auditable, responsive services to our Sailors 
and responsibly reduce costs. It funds expanded educational efforts to 
obtain warfighting advantage. Recognizing our ethical obligation to 
create a strong, positive environment for our Sailors, as well as the 
positive effect such an environment has on recruiting and retaining 
talent, we are committed to eliminating destructive behaviors such as 
sexual assault. We are focused on creating and sustaining a Culture of 
Excellence, where our Sailors do not merely avoid doing what is wrong, 
but actively pursue what is right. The Culture of Excellence program 
also leverages predictive analytics to intervene before destructive 
behaviors occur, breaking the cycle of simply responding to events.
    We are witnessing very good trends in recruiting and retention. 
This has enabled us to fill gapped billets at sea, reducing them from 
6,500 in December 2018 to 4,900 in December 2019. We met our retention 
goals for all zones in 2019, retaining 76 percent of the force. We're 
reforming our recruiting efforts, saving millions of dollars by 
processing forms for new accessions using biometric signatures. And our 
recruiters are exceeding their goals: 2019 saw the Navy sign the 
second-largest number of active-duty contracts, 40,756 new accessions, 
in the last 15 years. In an environment with low unemployment levels, 
these statistics are encouraging and demonstrate the America's young 
people see great value in joining the Navy team.
Lethality
    Deterring our competitors from malign activity requires fielding a 
forward-deployed, lethal naval force. Our competitors are heavily 
investing in technologies aimed at our naval forces. Across the Navy's 
Total Obligation Authority (TOA), the capability investments directly 
enhancing current and future lethality comprise approximately 21 
percent of the Navy's annual budget. This investment can be further 
sub-divided into future capability (11 percent) and modernization (10 
percent). Relative to the entire Navy budget, the value proposition of 
our modernization investments are often overlooked when compared with 
resources applied to major ship and aircraft procurement accounts. Each 
dollar is thoughtfully applied to specific key capabilities based upon 
a rigorous analysis of iterative wargames, exercises, and 
experimentation. Offensive and defensive modernization efforts enable 
our ships and aircraft to operate in the face of today's advanced anti-
ship and anti-aircraft systems.
    In particular, we increased our investments in directed energy and 
hypersonic weapons. In terms of directed energy, we request to apply 
$170.3 million in fiscal year 2021 to our directed energy programs, 
which will rapidly advance our ship's defensive capabilities. In terms 
of hypersonics, we request to increase our investments from $642 
million in fiscal year 2020 to $1.4 billion. PB-21 continues our focus 
on developing long-range, offensive fires launched from ships, 
submarines, and aircraft, including: Conventional Prompt Strike, the 
Maritime Strike Tomahawk, Joint Standoff Weapon Extended Range (JSOW-
ER), the Long-Range Anti-Ship Missile (LRASM), and the Standard 
Missile- (SM-) 6. We are moving quickly to extend the range of the 
carrier air wing with the rapid development of the MQ-25, the Navy's 
first unmanned carrier based aircraft. MQ-25 does more than extending 
our reach; it lays the foundation for integrating unmanned air power 
into our carrier fleet. The combined effects of these modernization 
efforts extends the lethal strike range of the CVW into denied areas 
while enabling the CVN to operate outside the threat ranges of 
adversary anti-ship missile threats.
    The fiscal year 2021 budget builds on the progress made in fiscal 
year 2020 to pursue a networked fleet by investing $82 million ($395 
million across the FYDP) in artificial intelligence and machine 
learning technologies that improve decision quality and speed in 
combat. This networked fleet requires a resilient operational 
architecture to integrate our command and control, sensors, shooters, 
and weapons. To accomplish this, we will leverage our work on the Navy 
Tactical Grid to build the Joint All Domain Command and Control (JADC2) 
alongside our Joint teammates. Protecting our networked forces requires 
building cyber resilience and security into our platforms from the 
beginning. To meet this need, the Navy will fund $4.17 billion across 
the FYDP to protect our operations, equipment, and industrial base from 
intrusions and ensure we have the means to fight through and recover 
from cyber-attacks. Meanwhile, we will integrate our cyber forces more 
closely with fleet operations to deliver catastrophic cyber effects as 
part of an integrated all- domain naval force.
    These investments all support a highly maneuverable fleet that 
controls the high-end fight. Nuclear powered aircraft carriers remain 
crucial to this effort and the Carrier Strike Group remains the 
cornerstone of the Navy's forward presence, sea control, and power 
projection capabilities. The nuclear-powered aircraft carrier (CVN), 
associated air wing (CVW), surface combatants, and sub-surface 
combatants represent the most survivable and lethal maritime fighting 
force in the world, providing long-range kinetic and non-kinetic 
effects from distributed mobile platforms at sea without the need for 
foreign basing rights. The CVN and embarked CVW are vital to the 
Distributed Maritime Operations (DMO) operating concept, providing the 
flexibility and endurance to hold large swaths of land or sea at risk 
for extended periods of time. GERALD R. FORD (CVN 78) represents a 
generational leap in the aircraft carrier's capacity to project power 
on a global scale. FORD-class carriers are designed to generate a 30 
percent higher sortie rate with a 20 percent smaller crew than a NIMITZ 
class carrier. This translates to $4 billion savings over the life of 
the program generating more decisive naval power. With the successful 
completion of CVN 78's Post Shakedown Availability and subsequent 
Independent Steaming Events, finishing our work and delivering this 
capability to the fleet as quickly and effectively as possible is one 
of DON's highest priorities. The Navy has learned with each test and is 
consistently bringing each of the innovative systems online. FORD is 
currently undergoing final air compatibility testing, bringing the 
entire carrier air wing onboard and progressing towards her maiden 
deployment. We will continue to learn, iterate and improve, driving 
down cost on each subsequent ship of her class. We are grateful for the 
Committee's support of the program with the historic two-carrier award 
for CVN 80 and CVN 81 and are confident that the FORD class will 
provide the foundation for highly maneuverable and lethal combat power 
projection well into the second half of this century.
    Our naval logistics enterprise undergirds the effective employment 
of our forces in a dispersed, forward-deployed manner across the 
spectrum of conflict from daily operations into sustained major combat 
operations. Our logistics forces must provide forward-deployed repair 
and resupply as well as combat medical services to revive our forces on 
station. In addition, we will begin designing two new vessels, the Next 
Generation Medium Amphibious Ship and the Next Generation Medium 
Logistics Ship that will support our expeditionary forces operating in 
contested maritime spaces.
Capacity
    To increase America's naval power, we will continue to build more 
ships, submarines, and aircraft. There has been a long-standing 
consensus across the government that the Navy needs to grow. We are 
focused on responsible growth, a rate of growth that ensures our 
ability to effectively maintain the fleet and to properly man, train, 
and equip that fleet.
    We appreciate the strong support from Congress for naval 
shipbuilding, funding last year's request for 12 ships. We reaffirm our 
commitment to reach the 355-ship goal in a reasonable and strategically 
relevant timeline, and to augment a future 355-ship Navy with 
developmental and unmanned vessels. The pace of growth will depend on 
both our ability to find savings within our own topline. While this 
budget request slows the growth to 355 slightly to ensure we properly 
maintain the fleet we have, we are seeking ways to support increased 
rates of growth in the coming years. The challenges extend beyond the 
shipbuilding accounts, as we must also consider what increases in 
operations and maintenance accounts will be required to continue the 
momentum we have built in regaining readiness. We cannot, and will not 
build a hollow force simply to reach the 355 ship number. Because of 
the rate of change in technology, we will continue to refine the 
required number of ships in an iterative fashion, in coordination with 
the Secretary of Defense, and as informed by wargaming and 
experimentation.
    The fiscal year 2021 budget requests $21 billion in ship 
construction for 8 battle force ships and plans to build 44 battle 
force ships (plus 17 unmanned ships) over the FYDP. This procurement 
includes one COLUMBIA and one VIRGINIA class submarine each, two 
ARLEIGH BURKE Flight III destroyer, one Guided Missile Frigate, one LPD 
Flight II, and two Towing, Salvage, and Rescue ships.
    Deterring a nuclear attack on the homeland remains the Navy's most 
sacred duty and our number one acquisition priority. PB-21 fully funds 
the first year of construction of the lead ship of the COLUMBIA class 
ballistic missile submarine. Over the FYDP, we plan to start 
construction on the second ship of the class in fiscal year 2024 and, 
beyond the FYDP, to begin serial production in fiscal year 2026. The 
COLUMBIA class guarantees the most survivable leg of the nuclear triad 
remains on patrol into the 2080s, ensuring the secure second-strike 
capability that is the foundation of strategic deterrence.
    This budget request also supports one additional VIRGINIA Class 
submarine in fiscal year 21, continuing the Block V multiyear contract 
awarded in December 2019, which will then procure two per year from 
fiscal year 2022 through the FYDP. Additionally, the Guided Missile 
Frigate [FFG(X)] program is proceeding well, and will provide the fleet 
with a lethal small surface combatant that is optimized towards 
distributed maritime operations. The Navy plans to award the lead ship 
of the class in July 2020 and the second ship of the class in fiscal 
year 2021.
    We are committed to experimenting with unmanned systems, moving 
them beyond their current conceptual stage, and continuously assessing 
how they should be counted within the battle force. While we do not 
count unmanned ships at present, we will continue to procure our large 
unmanned surface vessel, buying 10 over the FYDP. These ships are 
envisioned to host both sensors and weapons. This procurement will 
transition to SCN funding by fiscal year 23. We will also procure 6 
extra-large unmanned undersea vehicles in the FYDP which will help 
provide solutions for specific fleet needs.
    This budget also procures 277 fixed and rotary wing aircraft 
(including 121 F-35C) and 25 unmanned aircraft across the FYDP. We are 
completing the acquisition of several type/model/series aircraft and 
continuing to purchase essential capabilities, such as the advanced 
early warning provided by the E-2D Advanced Hawkeye and a new, flexible 
logistics capability in the CMV-22 Osprey.
    We in the Navy are honored to defend American prosperity and 
American values around the world every day. We are excited to be 
working closely with the Marine Corps to deliver Integrated American 
Naval Power to perform these critical and timeless roles. We are 
conscious that every tax dollar spent to increase readiness, lethality, 
and capacity represents more than buying power, but the trust and 
confidence of the American people. We do not take that trust lightly 
and will seek every means to spend those dollars in a deliberate, 
methodical, and responsible fashion, maximizing naval power to the 
fullest extent that those funds enable. Thank you for your strong 
support and continued partnership in providing and maintaining a Navy.
                      u.s. marine corps priorities
    Mr. Chairman, Ranking Member and distinguished members of the 
Committee, this statement is my first report to Congress and represents 
my assessment of the current state of the Marine Corps and priorities 
for the future.
    The future operating environment will place heavy demands on our 
Nation's Naval Services, demands that the Marine Corps is not currently 
organized, trained, equipped, or postured to meet. Modernizing the 
Marine Corps for the era of great power competition will require 
significant adjustments to long-term Service investments, new 
integrated naval warfighting organizations and concepts of employment, 
and better training and education for Marines; changes that only 
Congress can help us realize. The fiscal year 2021 budget puts the 
Marine Corps on the path toward modernization, supports irreversible 
implementation of the National Defense Strategy (NDS), and sustains and 
builds our readiness to deter, fight, and win.
    My top priority as Commandant is to build the Marine Corps that 
will define integrated American naval power in 2030, even as it must 
remain ready to confront the challenges of today. I seek no additional 
resources for this effort. It is attainable with a stable budget and 
sustained by the leadership and oversight of Congress. Service 
modernization will require several years of dedicated analysis, 
wargaming, and experimentation on a level that we have not experienced 
in recent memory. We are committed to this effort and have already 
begun charting a new course. The Marine Corps is grateful to the 
Congress for its leadership and support during previous periods of 
modernization and seeks its continued support today.
    Before addressing the issues of force design, readiness, 
resourcing, and the latest fiscal year 2021 budget submission, it is 
important that I start with a few comments on our individual Marines 
and the health of the Corps. I strongly believe that everything we do 
begins and ends with the individual Marine--the heart and soul of our 
institution. On any given day, the vast majority of your 225,000 
Marines, representing every State and territory, serve honorably and 
perform their duties at home and abroad in an exemplary manner. I am 
extremely proud to serve alongside them, and based on my discussions 
with members of this committee, I know that my pride in them is shared. 
Regrettably, as several high profile incidents have revealed over the 
past several years, not all within your Marine Corps consistently 
adhere to our rigid standards, satisfy my expectations for professional 
behavior, or fulfill their obligations as Marines. Addressing the 
corrosive effects of misconduct and criminality by this small yet 
destructive minority is a top priority, and I offer the following 
observations:
    The presence of the malignant individuals and sub-cultures within 
the institution produces a well-known and well-documented pattern of 
misogyny. A 2018 publicized report commissioned by my predecessor 
clearly supports these observations as facts. I have begun the process 
of exposing and eliminating these malignant subcultures from our ranks 
and will seek Congress' continued assistance to that end.
    Eradicating sexual harassment and sexual assault remains a 
challenge across the military and the Marine Corps. I acknowledge what 
many of you already suspect or know--after many years of trying, and 
despite our best efforts and intentions, remedial actions taken to date 
have not caused the desired outcomes. I seek to address this problem 
head on.
    There are some within our ranks who remain hesitant to accept 
gender-integrated training at our enlisted recruit depots. I would 
remind those Marines that the Corps has conducted gender integrated 
training at Officer Candidates School for more than two decades, with 
outstanding results. I have every reason to believe that we can 
replicate that model in our enlisted recruit depots, and have already 
begun moving forward expeditiously, with the continued support of 
Congress. I understand the direction and the effort the Marine Corps 
must take to comply with the specified timelines for both MCRD Parris 
Island and MCRD San Diego in the 2020 NDAA that will meet the intent of 
Congress and the needs of the Marine Corps.
    The Marine Corps is a warfighting organization. We exist for that 
one purpose; to fight and to win. All that we do is standards-based in 
order to produce a premier expeditionary warfighting force for the 
Nation. In some occupational specialties within our Corps, there are 
legitimate operationally-derived physical requirements that every 
Marine must meet. Marines who meet these standards, regardless of 
biological sex or gender, will face no artificial barriers to their 
service or advancement.
    Appropriately addressing all of these issues becomes even more 
paramount as we design a future Marine Corps that is optimized to meet 
the challenges of 2030 and beyond. As we consider the skills, 
education, and capabilities required of the next generation of Marines, 
we must be able to recruit and sustain a force that draws from 100 
percent of our Nation's collective reservoir of talent, innovation, 
creativity, and patriotism. I take it as a personal responsibility to 
do everything within my authority to ensure that the Marine Corps does 
not create any artificial barriers to service or advancement.
    Force Design is my top priority as stated in my Commandant's 
Planning Guidance. Over the next three to 5 months, we will continue to 
refine and deepen the analytical depth of our initial planning through 
an iterative process of wargaming, analysis, and experimentation. That 
work will directly support the redesign of our Corps. Our collective 
Fleet Marine Forces, as well as our HQMC organization and many of its 
processes, to include the existing Planning, Programming, Budgeting, 
and Execution (PPBE) process, require a comprehensive overhaul to 
create the necessary level of naval integration across the Department. 
Naval integration with the CNO's Staff, with the fleets, and within the 
Department remains a top priority for me, the CNO, and the Secretary.
    Thanks to your continued support, your Marine Corps remains the 
Nation's most ready force. We have made forces available for deployment 
to meet Combatant Commander requests around the globe, often on short 
notice. Those deployed Marine Units reinforce our commitment to U.S. 
allies and partners and serve to uphold the international rules-based 
order. Wherever deployed globally, your naval expeditionary forces 
facilitate conventional deterrence, prevent fait accompli scenarios 
from developing, and successfully compete against malign maritime gray 
zone activities to assure our allies and partners of our continued 
commitment. This will not change.
    With your support, over the previous 2 years we have been able to 
satisfy increased global force management demands, including those made 
on our legacy fixed-wing aircraft squadrons. However, we should be 
careful not to confuse availability with operational suitability. 
Readiness must be more than a mere measure of availability. True 
readiness, which we define as the readiness of a unit to be employed 
against a peer threat to achieve decisive tactical and operational 
outcomes, requires investment in modern capabilities commensurate with 
those of the threat. This will require a significant shift from our 
most recent fiscal year 2021 budget submission. I would also 
respectfully submit that it may require a reassessment of our existing 
processes and metrics for assessing unit readiness--true readiness as 
described above. Within the Marine Corps, I am sustaining and 
reinforcing initiatives started by my predecessors that will increase 
the realism of pre-deployment training to more closely align with 
scenarios identified in the NDS. In addition, following a path that I 
readily acknowledge has been charted over the course of decades by the 
Army, we have added an extensive program of force-on-force training to 
our long-standing live-fire combined arms training exercise program.
    With these goals in mind, over the coming months, we will make 
significant changes to the organization of our Training and Education 
Command, which will require the support and consent of civilian 
leadership for full implementation. Additionally, it is not lost upon 
me that our desert training facilities, superbly adapted as they have 
been to preparing for the challenges of the last three decades, are 
less than ideal for the kind of integrated naval training and 
experimentation that we need to prepare for great power competition in 
contested littoral environments. Identifying and developing first class 
littoral training areas will be one of my priorities going forward, for 
which I will ask your guidance and support.
    Regarding this fiscal year 2021 budget submission, I am well aware 
that our budget requests since the release of the NDS 2 years ago have 
changed only marginally year-to-year. While the cumulative impact of 
those marginal changes is in some cases substantial, many were 
budgetary actions that merely shifted funding within existing programs. 
This is not the kind of substantive change now needed, nor will it 
result in the premier naval expeditionary force required to implement 
the NDS and realize our evolving naval and joint concepts. In fact, our 
major programs of record prior to the formulation and release of the 
NDS--F-35, CH-53K, MV-22, ACV, and JLTV--have actually grown. As I 
stated in my Commandant's Planning Guidance, these and other programs--
all of which were constructed to support a long-standing but now 
obsolescent conception of large-scale amphibious forcible entry--
require a critical review. I expect that review will likely recommend 
major revisions and reductions to some of our major programs. We must 
then reinvest those resources into capabilities more relevant to the 
future security and warfighting environment, many of which we are 
developing but have yet to procure.
    This necessary divestment and subsequent reinvestment process is a 
complex effort, and one that prudence dictates be conducted in the most 
thoughtful and analytically defensible manner possible. While it may be 
shocking to some for a Service Chief to openly criticize existing 
programs and priorities, our shift to the future is in no way an 
indictment of previous decisions or conclusions of those who once sat 
at this table or of any who provided oversight in the past. The simple 
fact that the strategic environment has changed significantly and that 
we are now in an era of great power competition, mandates that we must 
make the necessary adjustments to our naval warfighting concepts and 
accompanying investment plans to create true readiness--operationally 
relevant and available naval forces that create overmatch over 
anticipated adversaries. I understand there are both structural 
impediments to change as well as strong interests resisting change; 
however, as I stated during my confirmation--I will always provide my 
best military advice and ultimately defer to and support the decisions 
of the civilian leadership within the Department and Congress.
    The timing of this fiscal year 2021 budget submission coincides 
with an inflection point for the Marine Corps. Subsequent annual 
submissions will reflect that significant change in focus, and indeed I 
anticipate there will be opportunities even during the execution of the 
fiscal year 20 budget to make in- stride adjustments with the consent 
and support of Congress. Simply put, with peer competitors striving to 
supplant the role of U.S. military forces regionally and globally, we 
cannot afford to delay modernization when we see opportunities to make 
prudent adjustments from prior plans. If we are to avoid being 
outpaced, agility in reprogramming becomes an essential tool to apply 
where it makes sense to do so.
    This budget also supports our assertion that Marine forces--
operating as part of an integrated naval force--must seamlessly 
integrate into and play a complementary role within a larger joint 
force. Over the next few years, we must strive to reduce duplication of 
warfighting capabilities to only those areas that make sense tactically 
and operationally. Marine Corps contributions should largely be unique, 
complementary, and tailorable to the joint mission.
    Beyond the issues germane to my role as Commandant of the Marine 
Corps--to organize, train, and equip Marine Corps forces in support of 
the Fleets and Combatant Commanders--I offer the following observations 
as a senior naval officer and member of the Joint Chiefs of Staff.
    Today's environment of renewed great power competition demands a 
truly integrated naval force; we no longer enjoy the luxuries of 
internal Service focus and inefficiency that the ``unipolar moment'' 
allowed. The imperative now to accelerate naval integration is driven 
not by historical example nor traditional bonds between our naval 
Services--it is driven by the global environment described in the 
National Security Strategy and National Defense Strategy. Our ability 
to operate as an integrated naval expeditionary force within contested 
areas provides the joint force with an asymmetric advantage, an edge 
that we must preserve and strengthen in this era of great power 
competition.
    We need adequate numbers of naval platforms and surface combatants 
with the lethality to contribute to sea control and sea denial and 
appropriate defensive capabilities and sensors to operate in a 
distributed manner without imposing undue burdens on other platforms. 
Those platforms must also be affordable from both a procurement and 
sustainment perspective, as well as generate the kind of availability 
needed to meet future force generation requirements. Included in that 
future fleet must be adequate numbers of traditional amphibious ships 
as well as next generation amphibious ships that will enable the Fleet 
Commanders to employ the naval expeditionary force throughout a 
contested littoral area in a more distributed, lethal, and defensible 
manner.
    While our aspirations and expectations are great, I am certain that 
Congress expects nothing less from the Marine Corps. With your 
continued leadership and support, we will achieve our shared goals and 
modernize our warfighting capabilities and culture to best support the 
Navy, the Joint Force, and the Nation.
                           closing statement
    On behalf of our entire integrated naval force and every Sailor, 
Marine and civilian in the Department of the Navy, the three of us 
would like to once again thank the leadership and membership of this 
Committee for your attention, interest, and ongoing support of our men 
and women in uniform. We are also grateful to the Committee for the 
recent passage of the fiscal year 2020 Defense Appropriation. By 
passing this legislation you have enabled many of the priorities 
identified within this document, and you've sent a strong signal of 
support to our people--and a stern warning to our adversaries.
    We also appreciate the funding stability and predictability of the 
past several years. This has given our force the agility and 
flexibility necessary to address emerging threats and the needs of our 
integrated naval force, while shifting away from less beneficial and 
relevant spending. This stability has saved money for the American 
taxpayer. We owe it to them to ensure that every single dollar is 
invested in the most effective manner possible to fulfill our sacred 
oath.
    We urge the Committee to do everything possible to ensure continued 
funding stability so that we may implement the needed reforms and 
spending priorities discussed in this document to meet the great power 
challenge, protect the maritime commons, and stand in defense of the 
United States of America. On behalf of the world's finest Marines and 
Sailors, we thank you for your time and ongoing efforts, and we look 
forward to your questions.

                NAVAL BUDGET REQUEST AND FORCE STRUCTURE

    Senator Shelby. Thank you. Mr. Secretary, let's start with 
you, if I could. The fiscal year 2021 budget request for new 
ships is $4 billion below the 2020 enacted level. We also 
understand that the Navy is only planning to buy seven ships in 
2021.
    You currently have, to my understanding, have a Fleet of 
290 ships. In 2016, the Navy conducted a Force structure 
assessment that shows a requirement of 355 ships. And while 
Congress has not received an updated assessment, the budget 
request suggests, perhaps, that the Navy is reducing the number 
of ships it needs. Is that accurate?
    Secretary Modly. Senator, thanks for the question. It has 
been a big topic in various hearings that we have had so far.
    Senator Shelby. It is important to the existence of the 
Navy.
    Secretary Modly. Yes it is, and I will say that we are not 
coming off our commitment to a larger Navy. We need a larger 
Navy. And so we are focused on how we can make that happen. 
Right now that Force structure assessment from 2016, which 
pegged it at 355, is the Force mix. We are currently looking at 
that. We have been through the process.
    Both General Berger and Admiral Gilday conducted something 
called the Integrated Naval Force Structure Assessment over the 
last several months. Those conclusions came to me. I forwarded 
them to the Secretary of Defense. He is reviewing those right 
now and wants to do a deeper dive. I will say, whatever comes 
out of that deeper dive, I believe, is going to be more than 
355 ships. It will be somewhere north of that number when we 
consider some of the new types of platforms that we need. The 
challenge we have is a flat budget environment.
    Senator Shelby. We have that challenge with you, and you 
know----
    Secretary Modly. Yes, sir. I understand. We are trying to 
figure out how we can dig within our own budget to free up 
resources to fund this program. But at the end of the day, it 
is going to require more top-line to get to that number.

                      SHIPBUILDING INDUSTRIAL BASE

    Senator Shelby. Mr. Secretary, Navy leaders here before 
this subcommittee have repeatedly told Congress that stability 
and predictability are key to successfully managing the 
shipbuilding industrial base and ensuring that ships are 
delivering on cost and schedule. What is the impact of your 
shipbuilding plans on the industrial base, which a lot of us 
believe is so important to the future?
    Secretary Modly. Well, it is absolutely critical, sir, 
because we cannot--we have to have a stable industrial base in 
order to not only ramp up for the future but also to sustain 
the employment and the skill levels that we have. We have 
invested a lot over the last several years in building up 
skills in the various shipyards, particularly in the nuclear 
enterprise. We have to be able to sustain that.
    And I have said to the teams before, you can't just turn 
that on and off like a faucet. We have to have more stability 
in that program, but we have to understand where we are headed 
as well. And that is the process that we are going through 
right now is to determine.

                       NAVAL FLEET MODERNIZATION

    Senator Shelby. Mr. Secretary, I will address this to you 
and to Admiral Gilday. Any discussion about the acquisition of 
new ships, I think, would be incomplete without a discussion 
about maintaining and modernizing our current Fleet. The Navy 
has faced persistent challenges in maintaining this Fleet by 
underestimating, we think, its maintenance needs and the time 
and resources required to address them. You want to pick that 
up, tell us where we are and what the problem is there?
    Secretary Modly. Yes, Senator. Thanks for the question. So 
in this particular budget request, the $5 billion decrement in 
procurement is actually being pivoted towards manpower, $2 
billion for readiness, maintenance, and modernization, and then 
another $1 billion for R&D and technologies like hypersonics. 
On the maintenance and modernization piece, readiness is our 
number one priority. And so as I said in my opening statement, 
we need a ready, capable, lethal Fleet today.
    And so in terms of maintenance and where we are going, we 
have seen in almost the past year an increase of 60 percent in 
terms of the numbers of ships we are getting out of the 
shipyard on time. 60 percent--actually 35 to 40 percent.
    So instead of getting 35 percent of our ships out of the 
shipyard on time, right now we are getting above 60 percent and 
we expect that to go to 80 percent by the end of the year. Our 
goal is zero delays by the end of fiscal year 2021.
    Senator Shelby. But a lot of that depends on maintaining an 
industrial base doesn't it?
    Secretary Moldy. It does, and we look very closely at that, 
sir, in terms of both our public and our private shipyards.

                MARINE CORPS FORCE STRUCTURE REALIGNMENT

    Senator Shelby. General Berger, shortly after you took over 
as the 38th Commandant of the Marine Corps, you issued planning 
guidance that calls for a significant redesign of the Marine 
Corps to ensure alignment with the National Defense Strategy 
part of it.
    What progress have you made in identifying the changes to 
the Marine Corps Force structure in view of the needs today, 
and what adjustments do you plan to make that you can talk 
about here?
    General Berger. So we took the last 7 months to project out 
what we thought the Nation's Marine Corps would look like in 
2030. We are done with that first portion of the homework.
    And at this stage, I have explained what our results were 
to Secretary Modly and the Secretary of Defense and I am now 
having a dialogue with the senior leadership in the House and 
the Senate to make sure that they understand the assumptions 
that went into it and what the conclusions were. So in terms of 
where we are with that, the first step is done.
    Now, I need to explain to the leadership what the outcomes 
were, take their advice on the best way forward, and move. And 
this last part, sir, we will--this is not a one-time thing 
because we have an adversary that is moving. We have technology 
that is moving. So, we will need to continually look at how we 
are built for the future.
    Senator Shelby. You have to keep up with it, don't you?
    General Berger. We have to stay in front of it, sir. Yes, 
sir.
    Senator Shelby. Thank you.
    Senator Durbin.
    Senator Durbin. Thanks, Mr. Chairman. General Berger, you 
and I had a conversation in my office with your colleagues 
about the fact that the first man I ever worked for in the 
United States Senate was Paul Douglas, Senator from Illinois. 
Proud Marine. Served in World War II. And that when he was 
elected to the Senate in 1948, a few years after that, there 
was a national debate about whether we needed a Marine Corps 
and whether there would be a future for the Marine Corps. He, 
of course, was on the side of the Marine Corps and fought 
successfully to preserve the Marine Corps after World War II.
    He took great pride in that, probably as much as anything 
achieved in public life. I sense, from your testimony today, 
that as you say, the Marine Corps is at another inflection 
point, a pivot, and the language which you said in your 
testimony about modernizing the Marine Corps for an era of 
great power competition will require significant adjustments to 
long term service investments, new integrated naval war 
fighting organizations.
    In concepts of employment, better training and education 
for Marines. Changes that only Congress can help us realize. 
You go on to say something of great significance to an 
appropriations committee. You say, I seek no additional 
resources for this effort.

                       MARINE CORPS MODERNIZAITON

    Explain this to me, how can you make a significant change 
in the mission of the Marine Corps as you have described it 
here? What is the future of amphibious assault? Has it been 
redefined or understood today in different terms? And how can 
you achieve the significant change without additional 
resources?
    General Berger. There comes a time, I think in the military 
or in the corporate world, in civilian private sector, where 
the periodic, are we doing the right things, are we built right 
for the competition, it is clear that minor adjustments on the 
edges are not going to do. That is where we are. That is where 
we are as a service, as an institution. We are built okay for 
today. We are clearly not built for where we think we will need 
to be 6, 7, 8, 9 years into the future.
    That means we need to make some assumptions about where our 
pacing threat would be in 2030, some assumptions about 
technology, and some assumptions about the fiscal resources 
that we would have to work with. So our assumption on the 
fiscal side, sir, to get to your point. We assume we would have 
no growth fiscally. Because if we are constrained, self 
constrained by that, then we are going to build the best Force 
we can based on the budget we have today. Now that may be a 
different picture 10 years from now but our assumption going in 
is it is not going to grow.
    So how do we do that? We need to get rid of, we need to 
divest of capabilities that have served us well in Korea and 
Vietnam and the Persian Gulf, but are not a great fit for what 
the Nation needs us to do in the future.

                 THE UNIQUE MISSION OF THE MARINE CORPS

    Senator Durbin. If I can ask you, and perhaps you can 
answer this perhaps you can't, tell me what unique mission the 
Marine Corps has that cannot be served by another branch of our 
Armed Forces in your vision statement.
    General Berger. Against a peer adversary--I think against a 
smaller adversary, you can take a different approach. But if 
you believe in great power competition, I do, and it is going 
to be enduring for a while, then what you don't want to do is 
in all cases match up symmetrically against that adversary. In 
other words, blunt force against blunt force.
    So you have to understand, where are the areas where we 
have a unique advantage as a Joint Force, where does the Naval 
Force have a unique advantage, where does the Marine Corps fit 
into that picture? To your point, sir, we have an advantage in 
that we have been doing expeditionary amphibious operations for 
70 years and have a huge head start on the rest of the world. 
We need to maintain that margin of asymmetrical advantage. It 
will not be landing two brigades over a beach against a foe, an 
adversary that has built up defenses and ready for----
    Senator Durbin. A classic Pacific World War II.
    General Berger. We are not going to do that. That is 
correct. So now, we need to fight as a distributed maritime 
Force across a much greater area. Smaller forces, more capable, 
more lethal, not land two brigades across a beach.
    Senator Durbin. I am running out of time here but I wanted 
to ask the Secretary, I am concerned about the report that 
there is a 40 percent chance that the Columbia-class submarine, 
which is one of your highest priorities, will not meet cost 
objectives. And we have reduced the request in this next year 
from two Virginia-class submarines to one. That does not seem--
those two statements do not seem consistent with the stated 
goals of expanding the size of the Fleet, especially on the 
submarine side. Could you address it?
    Secretary Modly. Sir, the question about the Virginia-
class, I mean that is a sub that came out of our plan at the 
end game decisions made above our levels. We wanted to keep the 
sub in but there were some trades that had to be made at the 
Secretary of Defense level. It is at the top of our unfunded 
priorities list for that reason.
    With respect to the Columbia, right now I have not seen 
that report in terms of the odds of it coming in over budget. I 
do--what I have seen on it is that there is very little margin 
in that program right now and so we have to maintain the 
industrial base, we have to maintain the throughput into that 
program to ensure that we don't have those types of cost 
overruns.
    Senator Durbin. Thank you, sir. Thanks, Mr. Chairman.
    Senator Shelby. Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman. Secretary Modly, 
are you still committed to growing the MQ-4C Fleet, the Triton?
    Secretary Modly. Yes, we are still committed to that 
program, sir.

                     USE OF MANNED AND UNMANNED ISR

    Senator Hoeven. And talk about your use of, and Admiral 
certainly you can jump in here as well, but the use of the 
unmanned as well as your manned ISR (Intelligence, 
Surveillance, Reconnaissance).
    Secretary Modly. Well, I will start and then I will turn it 
over to the CNO as well. But unmanned is going to be a huge 
part of our future. It is the types of things that General 
Berger was talking about. How do we distribute our Force more? 
How do we put ISRs out there where we don't have people at 
risk? How do we do it at a lower cost? So unmanned is a 
critical element, not just unmanned aerial vehicles but 
unmanned ships as well. We are looking at all those scenarios 
for the future.
    Admiral Gilday. Senator, in terms of MQ-4, we have just 
accelerated the deployment of our first two out to Guam, and so 
they are on station and on mission right now in the Western 
Pacific. The capabilities that the MQ-4 brings to the Fleet are 
game changing in terms of long range ISR at altitude with 
sensors that we haven't had supporting the Fleet before. We are 
also developing the MQ-25, which is an unmanned platform aboard 
aircraft carriers. They both refuel while it is in the air, as 
well as providing SR sensing capability as well.
    Senator Hoeven. How about survivability?
    Admiral Gilday. Survivability of both of those air frames?
    Senator Hoeven. Yes.
    Admiral Gilday. Yes, sir. I think it depends--it is totally 
dependent upon the threat. And so we certainly wouldn't put 
those assets in a position where they would be shot down or 
they would be undefended.
    Senator Hoeven. What about survivability? This is one of 
the things the Air Force has brought up because they are not 
buying more of the RQ-4, one of the issues being concerns about 
survivability flying over countries with advanced air defense 
systems.
    Admiral Gilday. Yes, sir. So the intention in using those 
systems wouldn't be to put them in a position where they would 
be subjected to, you know, high casualty rates and a heavy 
anti-air environment. So we would use those ISR assets further 
back. But based on the sense that they have, they do have an 
extended range.
    Senator Hoeven. So describe when you use manned ISR and 
unmanned, and the relative benefits of each and how you deploy 
them together in a way that, you know, provides the maximum 
benefit.
    Admiral Gilday. So a lot of it is dictated by the threat 
environment. And so the environment you are going to operate in 
and then how you are going to use those assets, let's say, on 
multiple vectors, and you are going to do it in conjunction 
with other assets in the Joint Force, whether they be 
terrestrial base Army or whether they be air-based Air Force 
asset.
    So it will be a mix, so it is difficult to give you, and I 
don't mean to be evasive, but it is difficult to give you a 
precise answer. It would be based on the threat. It would be 
based on all the tools that would be available from the Joint 
Force.
    Senator Hoeven. But it is important, in your opinion, to 
maintain, enhance, develop, and continue that unmanned ISR as 
well as the manned. You can't go simply back to the manned.
    Admiral Gilday. Absolutely. Unmanned is the future, sir.
    Senator Hoeven. Alright. General Berger, same question from 
Marine Corps and your use of the unmanned ISR assets.
    General Berger. It will become even more important. It does 
augment, complement the F-35 not augment but complement the 
manned ISR platforms like an F-35, which is a flying sensor 
platform. Especially critical for the forward force, sir.
    In other words, the Marine Corps expedition, the Navy and 
Marine Corps expeditionary team that is up forward as a stand-
in forward Force. That is your eyes and ears. The Joint Force 
has to have a picture of what is in front of them. So I would 
expect 4 or 5 years from now much more unmanned ISR, and 10 
years, exponentially more than that. This is how you sense. 
This is how you understand the picture in front of you.
    Senator Hoeven. And small, medium, large drones. Your 
comments there.
    General Berger. We need a family of all. At the small unit 
leader--now, we have the means for a Sergeant to launch, 
recover, control, a handheld unmanned platform and he needs 
that information. But he also has to be linked into medium and 
high altitude longer endurance as well, either kinetically to 
engage something to target or just to collect information.
    Senator Hoeven. So even with unmanned ISR and satellite, 
you still feel the needs therefore the unmanned Fleet?
    General Berger. We assume that a threat is going to come 
after all those sensors, including our command and control 
network that stitches it all together. We need redundancy and 
we need resiliency both, yes, sir.
    Senator Hoeven. Thank you.
    Senator Shelby. Senator Reed. I was just--before calling on 
you, I was looking at the Secretary of the Navy, the 
Commandant, and the Admiral, and I was thinking, you as a West 
Point graduate and former Army officer bring a little committee 
equilibrium here. Thank you. Senator Reed.
    [Laughter.]
    Senator Reed. Mr. Chairman, I am doing my best to be polite 
today.
    Senator Shelby. And you are outnumbered.
    Senator Reed. I am completely outnumbered. I can't go any 
further because that will revive----
    [Laughter.]

                       VIRGINIA-CLASS SUBMARINES

    Senator Reed. Thank you, Mr. Chairman, and I have a great 
deal of respect from the Navy and the Marine Corps and these 
gentlemen in particular. Let me go back to the Virginia-class 
submarine. Block 5 acquisition, nine ships in a 5-year period, 
2019 through 2023, with an option for one more. The option was 
in the Navy budget until the very last moment, as the Secretary 
has said.
    I am concerned though that the window for exercising this 
option will be lost if we don't move quickly. In fact, the 
number one priority, unfunded priority of the CNO is the 
Virginia-class submarine. So, Mr. Secretary or Admiral Gilday, 
if the Congress does not fund this second ship today, will it 
be unlikely we will ever get it because of pressures going 
forward in the next 5 years?
    Secretary Modly. Sir, I would hope that is not the case. I 
would hope there would still be an opportunity to recover that 
at some point in the future, but it will be much more difficult 
if we don't get it this year.
    Senator Reed. And that is your view too----
    Admiral Gilday. Senator, I think if it is not in the next 
budget, I think it becomes increasingly difficult just because 
of the shear capacity at the shipyard, particularly with 
Columbia coming online. So in my view, it is a capacity issue 
and now is the time to go after it if we can get it.
    Senator Reed. And let me also say, I think everyone 
recognizes that the growing threat on the sea is significant, 
both from the Chinese and the Russians. Technologically from 
the Russians, but also geographically in terms of their 
extended cruises makes these submarines much more valuable than 
they were, and they are probably the most valuable asset we 
have but I am not objective when it comes to this topic. If we 
do fund a second Virginia-class boat, are you in a position to 
award the option this year, can you do that?
    Secretary Modly. In discussions I have had with Secretary 
Geurts who looks at this program very deeply, he feels 
confident that the schedule--and it had been lagging a little 
bit on the Virginia-class. It was behind by about 6 to 8 
months. He feels like they are back on track and that we could 
actually execute if it were done.

                        COLUMBIA-CLASS SUBMARINE

    Senator Reed. Thank you very much. And let's now turn to 
the Columbia. You would need, and are requesting, incremental 
funding authority for the boat and fiscal year 2021. And if you 
don't get that, you are going to have to ask for an additional 
$5.7 billion. Is that fair?
    Secretary Modly. That sounds correct.
    Senator Reed. That sounds correct. So basically the 
incremental funding will give you the flexibility to fund the 
ship, keep it on progress, and it is necessary that we do that. 
So if we don't give any incremental funding, you won't save 
that money. You will have to take more money out of your highs. 
Is that correct?
    Secretary Modly. I believe that sounds correct, sir. I can 
give you an answer on that.
    [The information follows:]

    The Navy has requested incremental funding authority for 
the Columbia program to support the award of the construction 
contract in October 2020. The planned contract will include the 
first two hulls (SSBN 826 and SSBN 827) and associated design 
and support efforts. This will enable the Columbia program to 
begin construction in October 2020, and provide industrial base 
stability, production efficiencies, and cost savings when 
compared to individual procurements. This contract cannot be 
awarded without incremental funding authority in fiscal year 
2021.
    Incremental funding authority will allow the Navy to 
program the costs for the first two ships over a 5-year period, 
reducing pressure on the Navy's shipbuilding account and risk 
to other shipbuilding programs. The program's approved 
acquisition strategy and budget requests assume incremental 
full funding in fiscal years 2021 through 2023 for SSBN 826 and 
fiscal years 2024 and 2025 for SSBN 827. Beginning in fiscal 
year 2026, the program's budget requests will include full 
funding in the year of authorization for SSBN 828 and follow 
ships. If disapproved, the Navy would be unable to award the 
option for construction of SSBNs 826 and 827; delaying the 
start of lead ship construction and delivery schedules, 
increasing construction costs due to schedule delays and build 
disruptions, and compromising the ability to meet U.S. 
Strategic Command requirements.
    Further, if incremental full funding is not provided, the 
program would require an additional $5.7 billion in fiscal year 
2021 to award construction of SSBN 826. The program would be 
unable to award the SSBN 827 until incremental full funding 
authority is provided or the ship is fully funded in fiscal 
year 2024.

                   NATIONAL SEA BASED DETERRENCE FUND

    Senator Reed. The other point, and it was alluded to and 
very succinctly and well by Senator Durbin, I think the 
chairman also mentioned it, the industrial base, we have 
problems in every industrial base, not just a submarine 
industrial basic, but we have created the national sea based 
deterrence fund and that is being used very aggressively to go 
down not to the primes but to the small contractors and others 
and improve the quality.
    And one of the reactions I have, sort of the compression of 
the schedule, is that some of the subcontractors need 
additional assistance at the industrial base training people, 
cybersecurity issues, techniques, etc. So we would be well 
advised to reinforce the National Defense budget, in this case 
the sea-based deterrence fund?
    Admiral Gilday. Yes, sir. I think so. I would be strongly 
in favor of that. We are tracking all the parts for Colombia. I 
just stepped through it to our review yesterday where we are 
taking a look at those vendors that are most at risk with 
respect to being able to provide parts on time and working very 
closely with them along the years, as you have mentioned.
    One of the thing I would add, sir, is that we will likely 
be coming with a legislative proposal that gives us--that we 
would request the authorities to be able to have the 
flexibility to spend money in cases of a CR (Continuing 
Resolution). So get back to that incremental funding so that in 
a program where we have to stay on schedule to get that boat on 
patrol in 2030, that we make best use of the money that we 
have.
    Senator Reed. That is correct. And in fact if we do a CR 
since the technically the Columbia will be a new start, you 
can't do anything, so we would have to have an anomaly. Is that 
correct?
    Admiral Gilday. That is exactly right. That is exactly the 
answer that we are looking for, sir.
    Senator Reed. Thank you very much. And, Mr. Chairman, at 
West Point, as I said, I really loved the Navy except for one 
sad day in December. So I want the record to show that. Thank 
you.
    Senator Shelby. Senator Collins.

                         DDG-51 ADVANCED RADAR

    Senator Collins. Thank you, Mr. Chairman. Welcome to our 
witnesses and thank you very much for your service. Mr. 
Secretary, last week Admiral Kilby testified that they DDG-51 
Flight III with its advanced radar, is the ship that the Navy 
must have in order to keep up with our adversaries. Secretary 
Geurts said that the Flight III's are needed to be a firm 
backbone for the Navy if we are going to compete on a global 
scale.
    In a letter to me dated January 27th, you two talked about 
the critical role that the DDG-51 Flight III is playing. And 
that is why I was so surprised and alarmed when the budget came 
out and showed, as the chairman has indicated, deep reductions 
in the DDG-51 procurement in the future years defense program. 
It seems to me that these cuts are contrary to the testimony we 
have heard about the vital importance of these ships, that they 
undermined the President's commitment to a 355 Fleet Navy, and 
they also cause instability in the industrial base.
    And we have heard that from a number of our colleagues 
today. It is important that we continue to add Flight III 
capability to the plate while also avoiding these up and down 
peaks and valleys in our industrial base that end up 
squandering the expertise and training of skilled workers at 
shipyards like Bath Iron Works. It also frequently causes cost 
increases in the long run.
    So I would urge you to avoid this abrupt change in the 
number of ships that you plan to procure. I also want to ask 
you this morning about where we are on an additional follow on 
multi-year contract for Flight III's. Wouldn't that help to 
continue to add important capability to the Fleet, save us 
money, and help ensure that stability in the industrial bases 
that is so important?
    Secretary Modly. Senator, I agree with everything you said. 
The DDG Flight III, 51 Flight III is critical. It is going to 
be a critical part of our future Force. In the 2021 budget, we 
had to make some tough choices in 2021 that were basically 
focused on readiness and the safety of our sailors that are on 
these ships. And as you know all too well, a couple years ago, 
we had some very horrible tragedies on a couple of these ships 
largely because they were being overworked, we didn't have 
enough people on them. So we are trying to bring up the number 
of crew members. That costs money.
    So we had to make some choices in 2021. But the long-term 
future for the DDG-51 Flight III is going to be a critical part 
of our future Fleet. And as we are looking at this new 
integrated Force structure assessment, it is part of that too. 
So we need to do a bit of a reset here in 2022, as we look at 
2022, and we do that problem, in terms of how we do the types 
of things you are talking about, how we develop stability in 
the industrial base so we don't have these perturbations every 
other year.
    And using these multi-year contracts, which we have done 
for the submarines, which we have done for the carriers, they 
are very, very helpful because not only do they provide 
stability to the industrial base, they drive the cost down for 
us as well. So yes, we are looking at all those factors.
    Senator Collins. Well again, I think that it is very 
evident where you look at where our ships are deployed today 
that there is stress on our sailors, stress on our ships, and 
we need more of both. Admiral, I appreciate your recent visit 
to the Portsmouth Naval Shipyard in Kittery, Maine, which is 
often called the gold standard of public shipyards because of 
its efficiency and high quality work. And I appreciate the 
Navy's attention of the modernization needs of our shipyard.

                  SHIPYARD INFRASTRUCTURE INVESTMENTS

    I noticed that in this year's budget request, the Navy is 
seeking authorization and partial funding for the $715 million 
multi-mission dry dock one extension. And the Portsmouth Naval 
Shipyard is expected to receive $160 million. I know that is 
going to be funded in increments. Could you talk about how 
important these investments are in order to ensure that the 
Navy's submarines are maintained on time and can be deployed.
    Admiral Gilday. Senator, I agree with you that that the 
public shipyards that we have, the four yards, are really the 
crown jewel in the crown of the industrial base. It keeps our 
Fleet operating. Up in Portsmouth and the other yards, the 
average age of these yards is 76 years old where----
    Senator Collins. Porthmouth's is 200 by the way. It is the 
oldest one in the country.
    Admiral Gilday. And so the infrastructure we have neglected 
honestly for a long time, it is fair to say that the condition 
of the infrastructure across those four yards is poor, hence 
our investment of $20 billion for the integrated optimization 
plan. We have three projects ongoing this year. One of them is 
at Portsmouth. We have eight MILCON (military construction) 
projects in the 2021 budget, two of those are for Portsmouth, 
and they are spread across the other yards as well.
    And so we consider those--we would like to keep that 
investment strategy on track and continue to put money against 
it for all the reasons that you have stated, ma'am. The other 
thing in terms of the workforce is, we have paid very close 
attention to optimizing the flow of work across those yards so 
that we keep those folks employed because we can't face a 
situation again where we actually reduce that workforce to our 
detriment down the line because we cannot--it takes 40 years to 
get a master shipbuilder to actually build one, over four 
decades, and so we are not going to hire somebody off the 
street.
    Senator Collins. Thank you, Mr. Chairman.
    Senator Shelby. Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman, Ranking 
Member. Really appreciate the opportunity to be here today and 
thank you to all of you for all the work you are doing. Mr. 
Secretary, I wanted to start with you and I want to talk about 
coronavirus. My home State of Washington is really an epicenter 
of this right now, but it is coming to everyone. In my State, 
there has now been 24 deaths. It is counting, and the number of 
people, we are not even saying anymore because it is growing so 
much.
    And this is really a serious crisis and every Government 
entity has to be equipped for a really a comprehensive 
response. It is not something we can do on the fly or last 
minute. We have to be prepared. We have to be prepared now, and 
frankly the lack of preparedness I have seen from a number of 
Federal officials is really disconcerting to me.

                           COVID PREPAREDNESS

    So I wanted to ask you today how you are assuring soldiers, 
sailors, and their families who are stationed in my State and 
really across the country and around the world now, how is the 
Navy prepared to deal with this virus as it continues to grow?
    Secretary Modly. So, thanks, Senator, for the question 
because it is obviously a top of mind right now for all of us. 
We at the Department of Defense, we have been engaged on this 
since probably the second week of January in terms of how we 
can assist, how the Navy can assist, and in the initial phases 
of this we opened up Miramar Marine Corps Air Station for 
patients that were there in quarantine for a couple of weeks.
    We have done it again now for another 300 coming off the 
cruise ship. So we have been engaged in the interagency. In 
terms of our own process for our own people, we have been very 
communicative with them in terms of what they need to be doing 
or passing along all of the basic measures that the CDC 
(Centers for Disease Control and Prevention)----
    Senator Murray. To your military bases?
    Secretary Modly. To our military bases, exactly. And the 
Secretary of Defense, I believe last night signed out 
something, I hadn't seen it yet, that basically puts out some 
mandates for personnel moves, etc., to the various countries, 
in and out of various countries. We were waiting for that to 
follow on his guidance so that we can flow the same guidance 
down to our folks as well. So we are very engaged in this. It 
is a big part of what I do every----
    Senator Murray. Do you have a plan for testing 
availability, for isolation, for anything beyond just it is 
coming to you?
    Secretary Modly. All the individual bases are going through 
that process in terms of how they would handle it on their 
individual bases. Some of them have unique circumstances like 
the Naval Academy, for example. All of our midshipmen are in 
spring break right now. And so, we stopped them from going to 
certain countries for spring break, but they are coming back 
here at the end of this week.
    The superintendent has already set up facilities there if 
we needed to isolation for those and testing for people who 
have symptoms. They are going to do a very extensive interview, 
and when every midshipman comes back, to ask them, where have 
you been? Who did you speak with? All those types of things. So 
each base is doing different things depending on the population 
that they are dealing with.
    Senator Murray. Are you talking to them about social 
distancing? Are you talking about----
    Secretary Modly. Yes, ma'am. All that type of guidance is 
going out. I have already put out two vectors. I put out a 
vector message to the Fleet every Friday. I have already done 
that twice in the last couple weeks in terms of guidance.
    Senator Murray. And what about a protective equipment. Do 
you have what you need?
    Secretary Modly. I am going to turn that to the CNO. I 
don't know, do you have an answer to that one?
    Admiral Gilday. We do have protective equipment in terms 
of, you know, we would prioritize the issuance of it. I think 
ma'am, you know, with the absence of a vaccine and then we do 
have testing, we do have that actually can conduct a test 
Force, but as you know, nationally we are trying to increase 
the amount of testing kits that we distribute.
    And so until we do that, we are really trying to minimize 
the risk of anybody contracting it and then transmitting it. 
And so we have taken a number of steps, Secretary Modly just 
mentioned, and the Secretary of Defense, I expect will come out 
with top-down guidance today. The Joint Chiefs just met a day 
and a half ago and provided him our best advice. And so I would 
expect that we will see even more top-down guidance today.
    Senator Murray. Okay. Can that guidance be shared with us 
when----
    Admiral Gilday. I am sure it will be public, ma'am. There 
is no reason why it wouldn't be.
    Senator Murray. Okay. Do you have the resources you need to 
deal with this?
    Secretary Modly. I think right now we have the resources 
that we need to deal with it. We have not seen significant 
outbreaks anywhere in our Force. I think right now we only have 
two or three people in the service that have tested positive. 
So I think we are okay right now, but that may change.
    Senator Murray. I understand that DOD (Department of 
Defense) has started to shut down some of the schools and 
childcare centers that are on the installations that obviously 
placing a burden on families. How are you dealing with that?
    Secretary Modly. Well with respect to--I am not--that is 
another thing that has come up to the individual commanders to 
make that decision as to whether or not they want to do it. I 
know with respect to the schools, they are looking at ways to 
possibly do tele-school for those students.
    Senator Murray. I would suggest that all of your schools be 
ready with a plan should they have to shut down with how they 
can do online learning, how they deal with childcare, how they 
deal with nutrition, all those things. In my State, they are 
doing that, and having a plan in place for that ahead of time 
would be really important for all of your childcare centers 
schools. And any other information you can get us on that, 
obviously.
    Admiral Gilday. Ma'am, so we are actually doing that right 
now in some locations with virtual training. We have a plan at 
the Naval Academy in case a worst-case plan if we have to stop 
classes. And so the graduating class--we would be in a place--
we could actually graduate them on time or even early if we had 
to.
    And so we are looking at that. In terms of shutting down 
schools and childcare centers, we are doing that in the case 
basis. We are trying to ensure that we are stitched with the 
local communities as well so we are not out of sync. And so 
that is an important consideration.
    Senator Murray. Okay, great. Thank you very much. 
Appreciate it.
    Senator Shelby. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. Gentlemen, 
thank you for your service. Thank you for your leadership. I am 
just reading through my clips this morning from the State of 
Alaska a short little article here on interception, aircraft 
interception by U.S. and Canadian aircraft of two Russian 
aircraft that flew over the Beaufort Sea, near the Northern 
Alaska Coast. NORAD (North American Aerospace Defense Command) 
is doing what NORAD is doing. We appreciate that a great deal.
    As you know, I am very Arctic focused and I think 
appropriately so, and I will share with you this morning, I am 
really somewhat surprised as I come in and look fully at the 
statement to see bare mention of anything Arctic related. You 
have a recognition about China's investment in the Arctic and 
go on to say investment in infrastructure needed to dominate 
the emerging Arctic recognition. You are recognizing the new 
trade routes opening up throughout the Arctic, and yet as we 
think about where the Navy is, where the Marines are when it 
comes to the Arctic, I worry that we have got a significant 
gap.
    Mr. Secretary, as you will recall, Secretary Spencer leaned 
in very, very, very much leaned in on the Arctic in a way that 
was, I think, very encouraging for us looking long-term about 
the issues as they relate to Russia, as they relate to China, 
but a level of awareness and preparedness. And so my questions 
this morning will be in this vein.

                   THE ROLE OF THE NAVY IN THE ARCTIC

    First of all, I would like to hear directly from you what 
you believe the role of the Navy should be in this emerging 
space. Some will say it is the emergence of a brand new ocean, 
the equivalent of the Mediterranean only it is up in the high 
North. Do you believe that from Navy's perspective, this has to 
be a priority for us, and if so, how does this budget reflect 
that?
    Secretary Modly. I will take that in two parts, Senator. So 
with respect to the prominence of the Arctic and in terms of 
our thinking, it is very prominent in our thinking because as 
you have stated, the Navy has a responsibility for maritime 
security and there is a whole, basically a brand new ocean 
opening up there because of the loss of the polar ice caps up 
there. And also the very aggressive and well stated intentions 
by both the Russians and the Chinese to make that part of their 
area of influence.
    And they are demonstrating that on a daily basis. So yes, 
exactly. So part of the reason, part of the justification for 
why when we look at our Force structure assessment, it drives 
us to a number bigger than 355, is that, because our 
responsibility for being able to operate in more places and 
more different times--at the same time, excuse me, requires us 
to have more ships. It is the only way you can do it. So that 
is part of it.
    The second part of it is, it is a joint problem as well. 
And so just over the last couple weeks, I have had 
conversations with Secretary McCarthy and Secretary Barrett, 
and we are forming a tri-Department group to look at not just 
Arctic but how that would impact basing situations and 
decisions for the Alaska area because it is a huge region--
preaching to the choir here, I know, but it is a huge strategic 
asset for the country up there, in that location, and we need 
to think how we can leverage each other in terms of our 
implementation of an Arctic strategy so that we can make the 
best use of all the skills that we can bring and all the 
resources we can bring to bear up there. So we----
    Senator Murkowski. And it does have to be, excuse my 
interruption but I am running out of time. It does have to be 
that joint approach and I appreciate that focus. And I am going 
to be traveling with Secretary Barrett and had that opportunity 
for further discussion.
    On the training side, I am always worried, always worried 
that we are not doing enough cold weather training. We have got 
the facility in California. Last I checked, the weather is 
pretty decent there as opposed to what we are facing up North, 
and we have had an opportunity to have the Marines out for an 
exercise last year. I understand it was really tough and that 
is a good thing because you need to be tested in that tough and 
really difficult environment out there.
    General Berger, can you speak to the priority of Arctic and 
cold weather training for the Marines? Do you see further 
exercises in places like Adak or whether it is up at the cold 
weather training center in Black Rapids. What do you see on the 
training side?
    General Berger. Viewed through two lenses, the way you 
broke them out, homeland defense part and then maintaining the 
free and open commerce part, both the Department of Defense, 
both the Naval Department fills a role. For us, as you point 
out, training, operating in that environment is not the same as 
another one, both in terms of equipment and the types of how 
you will operate is different, fundamentally different.
    And you have to experience that to really deeply understand 
it. We will continue to train in Alaska for those reasons. You 
can't replicate that in many other areas. The last part of 
that, ma'am, as you are familiar with, the other value of going 
to Alaska in addition to the environment is this scale at which 
you can train. It is huge and we have to be able to stretch the 
muscles of the Joint Force, of the Naval Force over great 
distances, across water, across terrain, and there are very few 
places I know of on the Earth where you can do that on a scale 
that you can do it in Alaska.
    Senator Murkowski. Well, we have the scale in the air on 
the land and in the sea, as you know, and we want to make that 
training available. It continues to be my understanding that 
the facility that we have there, Black Rapids, is good and 
solid and it is underutilized, which I still don't understand 
why we can't do more with that. We have opportunities out in 
Adak, and again, we would encourage those opportunities, 
because as you point out, the training and the experience is 
unparalleled. Mr. Chairman, thank you.
    Senator Shelby. Thank you.
    Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman and Ranking Member 
for holding this hearing. Thank you all for testifying and for 
your service. Mr. Secretary, I know that our chairman has 
already asked some questions about the FFG(X) Program. I want 
to extend that discussion a little bit longer.

                             FFG(X) PROGRAM

    As the Navy transitions from the littoral combat ship 
program to the frigate program, I am very concerned about the 
potential impact to Wisconsin shipyards and the Wisconsin 
shipbuilding industrial base. As you know, Fincantieri 
Marinette Marine in Wisconsin has hired and trained a very 
dedicated workforce to build and deliver 12 of the littoral 
combat ships and has increased hiring to ensure competitiveness 
in the frigate selection process.
    As you look to transitioning to the frigate and in light of 
cuts to shipbuilding in the President's 2021 budget, how are 
you going to ensure that the shipbuilding industrial base from 
shipyards to the supplier base will not be impacted?
    Secretary Modly. Well as you mentioned, ma'am, the frigate 
is a critical part of our strategy. It is a critical part of 
our new Force mix, regardless of whichever assessment you take, 
the one that we recently did, the one that Secretary of Defense 
is working on. The frigate is a key element to that. It fills a 
hole in our Force mix that we currently can't fill.
    So I can't speak specifically to what is happening with the 
procurement. It is in a procurement decision now, and so we 
have some good competitors in that process. One of the 
evaluation criteria they will make is the impact on the 
industrial base. They have to do that.
    So I am sure that they will look at all the factors and 
make the best decision and that will come to me for final 
approval. But in terms of the ship itself, we need that ship. I 
believe we need a lot of them, and I think that eventually we 
will get on a path to doing that.
    Senator Baldwin. Additionally, Mr. Secretary--well, first 
of all, I just commend you for the work you have done to 
strengthen Naval readiness and to keep Americans safe now and 
into the future. One part of readiness is ensuring a high 
quality of life for our sailors and another is about ensuring 
that future ships are designed to improve maintainability to 
prevent additional burdens on the Navy's ship maintenance 
backlog. How do you go about accounting for those factors, 
quality of life and maintainability, as you evaluate competing 
designs for the frigate?

                  QUALITY OF LIFE AND MAINTAINABILITY

    Secretary Modly. I think all those factors will be 
considered, particularly as we are looking to put fewer and 
fewer people on our ships, on their platforms, because of just 
the cost of people and the level of automation that we can have 
on them allows that to happen. So what that does is it also 
translates into ships that are far more technically advanced, 
technologically advanced, which requires crews that are far 
more educated and those are harder people to keep because they 
have opportunities to go do things outside of the Navy.
    And so it is hard to retain them. So you have to think 
about the quality of life. What is it like living on that ship? 
You know, what type of crew comforts do you have? What type of 
cycles, how often are you having to go out to sea, all those 
things factor into it. So particular as we start looking at--
and this is across the whole Force because we want, we are 
investing heavily in Naval education for our Force.
    We want very, very smart, agile minded people, and the 
opportunities for people like that outside the Navy in a strong 
economy is difficult. So we have to make sure that all those 
factors are part of our calculation in terms of what type of 
ship we buy, how we man them, how we crew them, etc.
    Senator Baldwin. Thank you. General Berger, I understand 
that the U.S. Marine Corps is in a transition period and the 
priorities do change, but I am concerned with a misconception 
that the JLTV (Joint Light Tactical Vehicles) was designed only 
for Iraq and Afghanistan and it doesn't fit within the National 
Defense Strategy.
    And while this is mainly a problem I have with the Army's 
procurement plan, I am concerned with the signal it sends to 
industry when any service begins using successful acquisitions 
programs as bill payers for other priorities in future years.
    Now, I will follow up with you in writing to get more 
detail, but leaving aside its various mission packages, 
wouldn't you agree that the JLTVs hull design would be useful 
against anti-vehicle and personnel landmines that we may see in 
future conflicts, and that we would want to see a similar hull 
design required in future manned platforms anyways?
    General Berger. Absolutely. I have been up to the factory 
where they build them, walked the line, seen what they have 
constructed. Beyond that, I was amazed, on our own working with 
Marines, took the cab off of it, mounted an elevated missile 
launcher, and say we can make this unmanned and have it satisfy 
your need for a vehicle weapon system that can be anti-ship. 
They are a phenomenal group there. We need that platform. Yes.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Shelby. Thank all of you for your appearance here 
today, and I have a number of written questions and other 
Senators may have too for the record that we hope you would 
answer.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted to Hon. Thomas B. Modly
            Questions Submitted by Senator Patrick J. Leahy
    Question. The U.S. Marine Corps was funded in fiscal year 2020 to 
complete air-drop testing of a low-cost munition based on the Advanced 
Capability Extended Range Mortar.
    Please provide an update on the program.
    Answer. In fiscal year 2018, the Marine Corps terminated the 
Advanced Capability Extended Range Mortar (ACERM) effort--a ground 
launched mortar munition--because it was not in alignment with 
modernization priorities. In fiscal year 2018 and 2019, Congress 
provided the Marine Corps with $9 million and $7 million, respectively, 
for a ``UAS air-delivered extended range munitions demo'' which 
initiated the Low Cost Air-Drop Munition (LCAM) project currently 
underway. The principal performer for LCAM is Simmonds Precision 
Products, Inc., a subsidiary of Collins Aerospace of Vergennes, VT, and 
the same developer for much of the previous ACERM munition (LCAM is 
based on the ground launched ACERM munition). In fiscal year 2021, 
Simmonds Precision Products, Inc. plans to conduct three flight test 
events of LCAM munitions against stationary and moving land targets at 
the Dugway West Desert Test Center.
    The first developmental flight test, scheduled for October 2020, 
will validate the LCAM initialization sequence, via the bomb rack, 
using the modified Universal Armament Interface developed for the MQ-1 
Predator. Further, it will demonstrate safe separation from the launch 
platform and collect airframe and sensor performance data. The second 
test, scheduled for February 2021, will validate Bomb Rack Unit (BRU) 
function with multiple rounds and proper sequence and satisfaction of 
the fuse arming environments. It will also expand the verified 
performance envelope of the LCAM airframe and guidance system. The 
third developmental flight test, in June 2021, will have similar 
objectives as the second flight test.
    The Congressionally-funded project will provide the Marine Corps 
with $15 million in fiscal year 2020 for ``air drop extended range 
munitions.'' A contract with Simmonds Precision Products, Inc. is 
currently in development. Expected tasking will consider a high 
explosive warhead drop, flexibility for different multi-munitions 
capacity UAS rack systems, munition airframe modifications for 
increased range and maneuverability, navigation performance in GPS-
absent conditions, tactical datalink and inter-munition datalink 
connectivity, autonomous terminal guidance, munition survivability 
features for the terminal phase of flight, greater target seeker 
capabilities, and target impact accuracy improvements.
    Question. How do you intend to use the results of this program to 
advance low-cost precision fires technology?
    Answer. We expect the results of this program could provide a 
number of insights related to low-cost precision fires technology. 
Specifically, we anticipate results could advance our understanding of 
low cost mid-course navigation systems in GPS-denied environments; 
intuitive tools for mission planning of complex engagements involving 
multiple targets; munition airframe optimizations for increased range 
and maneuverability; multi-spectral target detection and identification 
seekers; and autonomous terminal guidance. To ensure insights are 
widely shared across the joint force, the Marine Corps LCAM project 
team is closely coordinating with Army and Navy project managers who 
own LCAM enabling technology, for example, by inviting them to all 
flight tests and formal design reviews.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
    Question. What Navy programs have had the most impact on preventing 
suicides? And, what adjustments must be made to further ensure their 
effectiveness?
    Answer. To address suicide and other destructive behaviors, the 
Chief of Naval Operations established the Culture of Excellence, a 
Navy-wide framework designed to promote signature healthy behaviors and 
enhance warfighting excellence by instilling toughness, trust, and 
connectedness in Sailors. The Navy is using evidence-based primary 
prevention strategies to reduce destructive behaviors through decreased 
risk factors and to promote signature healthy behavior by increasing 
protective factors.
    Relationships, legal problems, financial difficulties, transition 
periods, and mental health issues continue to be common stressors in 
most suicides. Of note, over 40 percent of Sailors who died by suicide 
never deployed.
    As part of our Culture of Excellence, suicide prevention measures 
have been developed to increase embedded mental health providers who 
deliver direct support to our warfighters as far forward as possible 
for early intervention. We have also placed deployed resiliency 
counselors, who are civilian social workers, onboard aircraft carriers 
and large amphibious ships. Mental health and substance misuse services 
are available worldwide, including in mental health specialty clinics, 
primary care facilities, Navy installation counseling centers, on the 
waterfront, and embedded within the Fleet. At the unit level, Suicide 
Prevention Coordinators ensure commands have effective and 
comprehensive suicide prevention programs to help equip Sailors with 
the knowledge, skills, and resources to proactively navigate stress, 
support one another, and respond appropriately in the event of a 
crisis.
    The Sailor Assistance and Intercept for Life Program is an outreach 
effort that provides rapid assistance, ongoing clinical case 
management, care coordination, and reintegration assistance for Sailors 
during the 90 days after a suicide-related behavior, the period of 
highest risk. This program boosts the resources available to Sailors 
and provides additional support to commands to help reintegrate Sailors 
after a suicide-related behavior and while receiving a mental health 
intervention. Additionally, the Expanded Operational Stress Control 
program was developed for use in conjunction with the Command 
Resilience Team Network to assist leaders in the use of chaplains, 
medical personnel, counselors, and community resources to build a 
culture that is supportive of help-seeking behaviors. The program's 
goal is to assist Navy leaders build resilience within commands and 
individual Sailors by increasing the awareness and understanding of 
stress and providing strategies to mitigate detrimental effects. The 
Navy's vision is to develop an environment in which all Sailors are 
trained and motivated to navigate stress, assist their shipmates, and 
most importantly seek help from available resources early.
    Question. What specific programs are requested in the fiscal year 
21 budget that requires appropriating?
    Answer. The Navy appreciates the support Congress has given and 
continues to give to the problem of suicide in the military. We ask 
Congress continue to support the Navy suicide prevention program, 
embedded mental health providers, the Navy expanded Operational Stress 
Control program, and our Culture of Excellence campaign.
    Question. Why has the Task Force Climate Change been terminated? 
And, what office has taken over its responsibilities?
    Answer. The U.S. Navy Task Force Climate Change (TFCC) was 
established in 2009 in recognition of and to address important 
challenges for the Arctic and climate change, with the main objective 
being the incorporation of climate resilience as a cross-cutting 
consideration for planning and decisionmaking across the Navy. Through 
the work accomplished over nearly a decade, the Task Force met this 
objective by enabling the Navy to have knowledgeable, focused, and 
deliberate discussions that would inform and influence future Navy 
policy regarding Arctic capabilities and climate change considerations 
across the Department.
    The Task Force was not intended to continue indefinitely; it was 
only to remain in effect until superseded by strategy and policy. In 
January 2016, the Department of Defense published Directive 4715.21, 
Climate Change Adaptation and Resilience, and in January 2019, the Navy 
published its Strategic Outlook for the Arctic. The release of these 
strategic documents highlighted the successful integration of climate 
change issues into institutional business processes allowing for the 
subsequent stand down of the Task Force.
    Question. Please provide specific programs, projects, and staff 
levels conducting this work currently, including a detailed comparison 
with the Task Force Climate Change program.
    Answer. The Chief of Naval Operations (CNO) assigned TFCC 
leadership and functions as additional duties to the Oceanographer of 
the Navy's staff; it was not intended to be a long-standing nor 
separately sourced staff. These additional duties and functions have 
been realigned and transitioned into existing responsibility areas 
contained in OPNAVINST 5430.48 series (CNO Operations Manual). For 
example, rather than TFCC providing public affairs guidance for Arctic 
and climate change issues, the Navy Chief of Information has that 
responsibility. Additionally, the Navy's strategic approach to the 
Arctic outlined in TFCC Arctic Roadmap in 2009 and again in 2014 was 
transitioned to the Deputy Chief of Naval Operations Plans and Strategy 
(OPNAV N3N5), the Navy's expert in policy and strategic guidance 
development. OPNAV N3N5 led the generation of the January 2019 ``Navy 
Strategic Outlook for the Arctic.'' DON incorporation of climate 
resilience considerations into existing responsibility areas did not 
require separate resourcing or staff.
    The Navy views climate change as a critical readiness and national 
security issue, both afloat and ashore, and will continue to include 
climate change and environmental resilience considerations in its 
strategic approach to support national security priorities in the 
maritime domain.
    Question. Do you believe our Navy and Armed Forces must adapt and 
adjust to new security threats amidst a changing climate? If so, how? 
And what can Congress do to help?
    Answer. Alongside other components of the Joint Force, the Navy's 
primary mission is to defend the United States homeland, and our 
interests and commerce, from attack. In this era of great power 
competition, the major challenges to our security and prosperity come 
from the growth and modernization of the navies of our rivals, China 
and Russia. Building and fighting a Navy that deters or, if necessary, 
defeats these competitors is our primary focus. Even so, a changing 
climate will have compounding effects on other trends in great power 
competition. For example, the reduction of Arctic sea ice is opening 
new sea lanes to trade, creating significant interest in Moscow and 
Beijing. Consequently, the Navy expects the Arctic will become yet 
another--if secondary--venue for great power competition. Moreover, 
since many climate models predict rising sea levels, the Navy must 
ensure our base infrastructure is prepared to support deterrence or 
combat operations regardless of prevailing environmental conditions. 
Furthermore, an increase in storm activity at sea could negatively 
impact operational tempo- although this will be true for our allies and 
potential adversaries alike. Lastly, we are aware that climate change 
may affect some countries and regions more dramatically than others. 
For instance, American partners in critical regions such as East Asia 
or the Indian Ocean may request additional humanitarian assistance and 
disaster relief support from the maritime services.
    Question. Do you concur with Admiral Davidson's assessment that 
there is insufficient infrastructure at Pacific training ranges 
(including JPARC in Alaska) to prepare the next generation of naval 
warfare? If so, how do you believe that the Navy must adapt to meet its 
additional Naval training requirements in the Pacific and cold-weather 
operations?
    Answer. The Navy acknowledges that training capability gaps 
currently exist in the Pacific Fleet. To align with the National 
Defense Strategy and address the near peer threat, the Navy has made 
significant investments to address critical training range capability 
gaps in the Pacific Fleet. For Presidential Budget (PB) 18, the Navy 
invested $158.4M across the FYDP to upgrade Pacific Fleet training 
capabilities. PB19 included an additional investment of $203.8M across 
the FYDP to recapitalize the Barking Sands Tactical Underwater Range 
(BARSTUR) complex at the Pacific Missile Range Facility in Hawaii. PB20 
added an additional investment of $66.7M for modifications of the 
Electronic Warfare systems at Fallon Range Training Complex in Nevada. 
The Navy has invested $429.8M towards improving the Pacific training 
ranges in the last three budget submissions.
    The Navy is investing in under-water training and tracking system 
modernization through the Undersea Warfare Training Range program for 
both shallow and deep-water ranges. The Navy is investing in portable 
tracking ranges in support of Forward Deployed Naval Forces. The Navy 
is in the process of renewing the land withdrawal and pursing expansion 
of the Fallon Range Training Complex to address aviation training 
requirements associated with fifth generation aircraft and long-range 
weapons; SEAL tactical ground mobility training and all pre-deployment 
SEAL team training.
    Although live training remains an irreplaceable element of force 
generation, the Navy is also investing in Live, Virtual and 
Constructive (LVC) training infrastructure to better train the fleet in 
an evolving warfare environment, and address near peer threats under 
the fiscal and spatial constraints of our training environments. LVC 
integrates existing infrastructure into the Navy Continuous Training 
Environment (NCTE) network to provide a more complex, adaptive, secure 
and comprehensive training environment across the surface, undersea, 
and air domains. The Navy has invested $1.85 Billion between PB18 and 
PB21 to enhance LVC training. The target date for declaring full 
operating capability of joint, multi-domain, globally distributed LVC 
training is 2026.
    Additionally, the Navy is participating in the INDOPACOM 
commissioned survey of Pacific training ranges for their potential use 
as multi-domain experimentation, exercise and training venues (to 
include recommended infrastructure upgrades to facilitate joint/
combined activities using live, virtual and constructive technologies). 
The survey is currently in progress.
    With regard to cold weather training and operations, Forward 
Deployed Naval Forces in Japan routinely train and operate in cold 
weather in and around Japan and the Korean Peninsula. The Navy 
participates in exercises such as Northern Edge and in the Arctic 
Expeditionary Capabilities Exercise in the Aleutians and Alaska's 
inland waterways. The Lessons Learned from these cold weather training 
exercises have not identified any significant training capability gaps 
associated with operations in these environments against near peer 
competitors.
    As the Navy seeks to enhance capabilities to its ranges to prepare 
for great power competition, it also remains concerned with the 
potential degradation of existing range capabilities from threats such 
as encroachment from incompatible development. In the Pacific, offshore 
energy development poses an emerging challenge to maintaining training 
capacity in offshore ranges. The Navy is currently engaged with the 
Department of the Interior and State governments to ensure offshore 
wind development proposed off the coasts of California and Hawaii do 
not significantly impact range capabilities and fleet readiness.
    The Navy understands that winning in the future operating 
environment will require comprehensive integration with Marine Corps 
capabilities through concepts such as Expeditionary Advanced Base 
Operations and Littoral Operations in a Contested Environment. Our 
integrated naval capabilities cannot be achieved without the ability to 
train together. Therefore, U.S. Fleet Forces Command (USFFC) helped 
establish--in partnership with Marine Forces Command--the Maritime 
Working Group, which focuses on identifying and resolving naval 
integration gaps. USFFC has also invited Marine Corps representatives 
from Training and Education Command to participate in the Fleet 
Training Requirements Management Group and Fleet Training Wholeness 
resourcing process. The Marine Corps is also working to establish a 
Live Virtual Constructive Training Environment program, which the 
Marine Corps plans to connect to the NCTE as a first step towards 
creating a true naval training environment.
    As described in the 38th Commandant of the Marine Corps' Planning 
Guidance (CPG), ``III MEF will become our main focus-of-effort, 
designed to provide U.S. Indo-Pacific Command (USINDOPACOM) and the 
Commander, 7th Fleet with a fight-tonight, standing force capability to 
persist inside an adversary's weapon systems threat range, create a 
mutually contested space, and facilitate the larger naval campaign.'' 
To support this, and as directed as part of the CPG, the Marine Corps 
is developing a training range modernization plan that embraces ranges, 
airspace, and training areas that incorporate improved instrumentation, 
enhanced feedback, and target systems that support training 
requirements from the individual Marine through the most capable Marine 
Air Ground Task Force to accomplish naval tasks in a peer threat 
environment.
    The Defense Policy Review Initiative includes relocating deploying 
units from Okinawa, Japan to Guam, and developing associated basic 
training ranges and infrastructure. On Guam, individual Marine skills 
ranges are part of the Guam Supplemental Environmental Impact Statement 
(EIS). In a separate action, USINDOPACOM, with the Marine Corps as 
executive agent, is sponsoring the Combined Joint Military Training 
(CJMT) EIS to address existing and future training deficiencies in the 
Western Pacific, specifically the Mariana Islands. The CJMT EIS effort 
is studying the possibility of developing new unit and combined arms 
training range capability and capacity in the Commonwealth of the 
Northern Mariana Islands. These ranges and their associated airspace 
will provide the necessary training opportunities for Marines stationed 
in Okinawa and forward deployed to the Western Pacific.
    The Marine Corps has budgeted for approximately $28 million across 
fiscal year 2020 and fiscal year 2021 for investments in range and 
training simulators across Guam, and the Marine Corps will continue to 
do so in future years. Finally, the Marine Corps is using training 
opportunities in Australia to address Rotational Force training 
requirements.
    In conclusion, the Navy is actively addressing the capability gaps 
in Pacific Fleet training ranges and is providing the required 
investments to improve the current training range infrastructure.
                                 ______
                                 
               Questions Submitted to Admiral Mike Gilday
             Question Submitted by Senator Susan M. Collins
    Question. Admiral, last week you confirmed that the Navy is 
supportive of requests from U.S. European command that an additional 
two DDGs be assigned to Rota, Spain. I'm pleased to hear that as this 
is something I raised with your predecessor Admiral Richardson last 
year in response to increases in Russia maritime activity. How would 
these additional destroyers in Europe help U.S. European command and 
our NATO allies deter Russia?
    Answer. The four DDGs already homeported in Rota, Spain as part of 
Forward Deployed Naval Forces--Europe (FDNF-E) maintain ballistic 
missile defense (BMD) of continental Europe as their primary mission. 
These efforts are part of the European Phased Adaptive Approach to BMD, 
which is a critical component of NATO's Alliance-wide BMD capabilities. 
In addition to these duties, FDNF-E ships regularly conduct theater 
security cooperation activities with allies and partners that enhances 
NATO's wider deterrence efforts and bolsters our collective security. 
FDNF-E ships are also called upon to support combat operations in other 
theaters as required, drawing them away from the BMD mission and 
security cooperation efforts.
    There is currently no plan to increase DDGs in Rota, Spain. 
However, two additional DDGs forward deployed to Europe will provide 
EUCOM needed capacity and flexibility to continue meeting its enduring 
mission requirements while also engaging in security cooperation 
activities and support to other operations as required. Additional 
capacity and flexibility will also enable EUCOM to more effectively 
track and respond to increasing Russian naval presence across the 
region. As GEN Wolters has said, additional DDGs in Europe as part of 
FDNF-E will improve EUCOM's ability to gather vital indications and 
warnings in potential battle spaces throughout its area of 
responsibility, and conduct command and control in potential 
contingencies.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt
                        f/a-18e/f super hornets
    Question. Admiral Gilday, I want to thank you for the Navy's 
commitment to implement the National Defense Strategy in this year's 
budget request. Your budget shows there were clearly some tough choices 
to be made for balancing priorities. In your fiscal year 2021 budget 
request you included funding for 24 Super Hornets, to round out the 
third year of a multi-year buy. However, your budget has eliminated the 
purchase of 36 additional Super Hornets over the next 3 years from the 
schedule. This effectively eliminates 3 squadrons of new Super Hornets 
and puts the entire production line at risk of closure. Admiral Gilday, 
first, I would like to congratulate you and the Navy for achieving your 
goal of 80 percent mission capable rate for the Super Hornet and 
Growler fleets. The Navy has made thoughtful investments in recent 
years with the multiyear procurement contract for new Super Hornets and 
working at its depots to increase readiness across your F/A-18 fleet. 
However, I am concerned that after this fiscal year, the Navy has 
decided to stop buying Super Hornets. I understand that you are taking 
other measures to support tactical aviation, but buying new Super 
Hornets is the most direct way to address your shortfall and maintain 
high readiness. I think it is a mistake to stop buying Super Hornets at 
this time. Can you please tell me if it is true that the Super Hornet 
program is still the Navy's most cost effective tactical fighter to 
procure and operate in the fleet?
    Answer. The Super Hornet is less expensive to procure and operate 
than the Joint Strike Fighter today. The unit recurring flyaway (URF) 
cost in fiscal year 2019 for the F/A-18 E/F was $65.2M while the F-35C 
was $98.1M. To operate the aircraft, the cost per flight hour (CPFH) in 
fiscal year 2019 Dollars was $22.7K for the F/A-18 E/F and $49.1K for 
the F-35C. CPFH of 4th and 5th Gen platforms is expected to equalize 
near the end of the FYDP as a greater number of F-35C will be operated 
in the Fleet. Strike Fighter Inventory Management (SFIM) modelling 
accounts for new procurement Block III Super Hornets, Service Life 
Modification Block III Super Hornets, new procurement JSF, depot 
maintenance repair, and aircraft projected utilization based on the 
Optimized Fleet Response Plan. The SFIM model projects that Strike 
Fighter shortfall is almost completely eliminated by the end of the 
FYDP, as previously briefed.
    Question. And, if that is the case, why did the Navy make the 
decision to eliminate 36 aircraft that were in your previous budget?
    Answer. Prior delays to the Joint Strike Fighter program required 
the Navy's F/A-18E/F fleet to absorb risk to backup and attrition 
aircraft. However, the Department is committed to achieving a mix of 
4th and 5th Gen assets by 2030 with F-35C procurement and F/A-18E/F SLM 
providing mechanisms to manage these risks. In order to meet the 
demands of the National Defense Strategy, the prudent decision was to 
transition investment into development of the Next Generation Air 
Dominance (NGAD) Family of Systems (FoS) in order to replace the F/A-
18E/F as it reaches end of service life. This strategy will ensure that 
Naval Aviation maintains air warfare dominance for decades to come. 
Additional details are available at a higher classification.
                                 ______
                                 
             Questions Submitted to General David H. Berger
             Questions Submitted by Senator Lisa Murkowski
    Question. What programs have had the most impact on preventing 
suicides? And, what adjustments must be made if they are needed?
    Answer. The Marine Corps approaches the challenge of suicide 
prevention through five major programs and initiatives, described 
below. Collectively, we believe these programs and initiatives are 
helping to reduce the incidence of suicide, even if those reductions 
are modest.
  --Unit Marine Awareness and Prevention Integrated Training (UMAPIT): 
        updated for CY20, UMAPIT (pronounced YOU-MAP-IT) teaches every 
        Marine the basics of suicide prevention, normalizes life 
        changes, and emphasizes seeking help early in hopes of 
        decreasing stigma. Research on social media and suicide is also 
        included, as well as suicide safeguards. Survey results 
        indicate this training is effective at increasing overall 
        behavioral health knowledge, knowledge of where to refer 
        Marines, likelihood of making Behavioral Health referrals, 
        belief that it is socially acceptable to discuss suicide, and 
        belief that suicide can be prevented.
  --Combat and Operational Stress Control (COSC): COSC initiatives 
        promote prevention, intervention, protection and crisis 
        response for stress reactions at the unit level. Operational 
        Stress Control and Readiness (OSCAR) team training is one such 
        COSC initiative and was updated for CY20. This training builds 
        teams of selected Marines and unit leaders as well as medical 
        and religious personnel who work together to act as sensors for 
        the commanders by noticing small changes in behavior and taking 
        action early. OSCAR teams support the commander in building 
        unit strength, resilience, and readiness. The Marine-led 
        training teaches team members to help Marines face everyday 
        stressors before they become overwhelming. OSCAR team members 
        use their leadership skills and knowledge of the full spectrum 
        of stress reactions to break stigma and intervene when Marines 
        show signs of stress, including suicidal ideations.
  --Behavioral Health Non-Medical Counseling: Non-medical counseling 
        services are available to Marines to augment a Commander's 
        efforts to teach and strengthen coping skills, mitigate 
        stressors, and identify Marines in crisis, and/or at risk for 
        suicide.
  --Marine Intercept Program (MIP): MIP is a targeted intervention that 
        expands follow-on care for Marines who have attempted suicide 
        or have had a suicide ideation. MIP provides follow-up contacts 
        by telephone or in person, safety planning, and suicide risk 
        assessment as well as coordination with the Marine's commander.
  --Death by Suicide Review Board (DSRB): DSRB analyzes all deaths by 
        suicide to provide strategic and operational recommendations 
        that address multiple Marine Corps suicide prevention goals. 
        Recommendations from DSRB help commanders at all levels to 
        understand the risks of suicide and improve prevention 
        initiatives.
    Question. What specific program are you implementing to improve the 
quality of life?
    Answer. We are looking at possibilities from our public health 
approach to suicide prevention that acknowledges a complex interplay of 
individual-, relationship-, and community-level risk factors. This 
approach focuses on reducing suicide risk of all Service members and 
their family members by attempting to address the myriad underlying 
risk and socio-demographic factors (e.g., reluctance towards help-
seeking, relationship problems, legal and financial concerns, access to 
lethal means). At the same time, this approach focuses on enhancing 
protective factors (e.g., strong social connections, problem-solving, 
and coping skills). Risk and protective factors can be mitigated and 
strengthened, respectively, by quality-of-life programs that offer 
appropriate resources (e.g., financial counseling, relationship 
counseling, resilience training).
    Question. Do you believe our Marine Corps and Armed Forces must 
adapt and adjust to new security threats amidst a changing climate? If 
so, how? And what can Congress do to help?
    Answer. I believe the Marine Corps and joint force must constantly 
adapt and adjust to the environment, whether in terms of adversaries or 
climate. Regarding adversaries, the Marine Corps is building a force to 
deter, compete with, and if necessary, defeat our pacing threat. Your 
continued support for PB21 will help us achieve that goal. In terms of 
the changing climate, its effects to date do not necessitate any major 
changes to Marine Corps programs.
    The Marine Corps is prepared and will be prepared to fight in any 
clime and place and is constantly evaluating the future operating 
environment to include evaluating threats based on climate change. We 
are answering the requirements of the National Defense Strategy by 
building a force to compete against a peer threat in the Indo-Pacific. 
In order to maintain our current posture the Marine Corps requests 
continued support of our fiscal year 2021 budget request.
    Question. Is Arctic and cold weather training a priority for the 
Marines? If so, what support do you need to ensure Marines get this 
critical training?
    Answer. Arctic and cold weather training is a priority for those 
units which are expected to support specific regional operational plans 
(OPLANS), rather than a priority for the entire force.
    The Marine Corps' primary venue for cold weather training is the 
Marine Corps Mountain Warfare Training Center, located in the Sierra 
Nevada Mountains of Northern California. At this facility, Mountain 
Training Exercises involve several thousand Marines each year and are 
focused on mobility and force-on-force training in cold weather and 
high elevation conditions.
    The Marine Corps also conducts multiple formal courses for 
individual leaders in cold weather skills, including weapons employment 
and mobility across extreme winter terrain at locations in Alaska, 
Minnesota, Wisconsin, and Vermont.
    As an example of the Marine Corps' commitment to cold weather 
training, in September 2019 approximately 600 Marines and Sailors from 
I MEF participated in the Artic Expeditionary Capabilities Exercise in 
the Aleutian Islands. Additionally, during February and March 2020 
Exercise Arctic Edge was conducted in Fort Greely, AK where 336 Marines 
participated in Joint and combined military operations in and arctic 
environment.
    Additionally, the Marine Corps trains in Norway, above the Arctic 
Circle, in exercises that enhance interoperability with NATO allies, 
including the Norwegian Army and British Royal Marines. In the Pacific, 
the Marine Corps conducts cold weather training in northern Japan and 
alongside our Korean allies as part of the Korea Marine Exercise 
Program.
    At this time, existing training venues and exercises are sufficient 
to meet the Marine Corps' needs for Arctic and cold weather training.
    Question. USEUCOM's second priority on their Unfunded Requirements 
letter calls for $7.5M for Marine European Training Program--''Life 
support requirements for Marine Coordination Element, Norway (MCE-N)''. 
Why are no similar requests being made to bring Marines to Alaska as a 
consistent rotational training program?
    Answer. To my knowledge, no Combatant Commander has determined that 
a rotational Marine Corps force is required in Alaska. If and when that 
times comes, the regional Marine Forces Commander will advise the 
Combatant Commander on how best to train and employ that force.
    Question. What do you need from Congress to ensure you have the 
support needed to make training programs in Alaska consistent? 
Particularly Black Rapids/Northern Warfare Training Center.
    Answer. The Marine Corps does not seek additional resources at this 
time. Our existing training venues and exercises, to include episodic 
training in Alaska, are sufficient to meet the Service's needs for 
Arctic and cold weather training.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt
                      marines at fort leonard wood
    Question. General Berger, as you know, Fort Leonard Wood in my home 
State of Missouri is proud to be home to the most Marines in the Nation 
outside of a Marine Corps base.
    Last year we saw between 5,000 and 6,000 Navy and Marine Corps 
personnel complete their training at Fort Leonard Wood with over 90 
percent of courses being multi-service.
    I would welcome you, along with Admiral Gilday and Mr. Secretary, 
to visit Fort Leonard Wood in the near future.
    I want to take a moment to talk about training. Fort Leonard Wood 
has proven it generates significant efficiencies for multi-service 
training, which has been realized by all services and several military 
occupations that currently take advantage.
    I understand that education and training are one of your top 
priorities as Commandant.
    You talk about refining relationships to enhance partnerships with 
other services, in particular with the Navy.
    In your Commandant's Planning Guidance you state that the Marine 
Corps is dealing with antiquated training facilities and ranges as well 
as lacking modern simulators to sustain training readiness.
    In your plan to address these issues have you considered how to 
further take advantage of existing capabilities from other services, 
such as what the Army offers at Fort Leonard Wood?
    Answer. The Marine Corps will continue to explore ways to maximize 
training at the bases and stations of other services, to include Fort 
Leonard Wood, in order to meet our force generation requirements. We 
trained 5,300 Marines at Fort Leonard Wood in FY/CY18, 5,680 in FY/
CY19, and anticipate training 4,910 Marines in FY/CY 20. We plan to 
continue utilizing the facilities at Fort Leonard Wood to meet our 
force generation needs.
    Question. Additionally, can you discuss the benefits or drawbacks 
of conducting training in a multi- service environment?
    Answer. Conducting training in a multi-service environment can 
increase efficiency and enhance the warfighting capabilities of the 
joint force in three ways. First, exposing service members to the 
operational culture of their service services enables them to be better 
partners during joint operations. Second, training in this environment 
encourages the transmission of best practices, with the potential to 
raise training standards across the services. Finally, training in a 
multi-service environment has the potential to reduce costs when 
multiple services can conduct training using the same infrastructure. 
While the Marine Corps takes every opportunity to train in this 
environment, the majority of our training will continue to focus on 
building service-unique capabilities in a naval context.

                          SUBCOMMITTEE RECESS

    Senator Shelby. Mr. Secretary, thank you very much, 
Admiral, General. The committee stands in recess until Tuesday, 
March the 24 at 10 a.m. where we will then receive testimony 
from the Department of the Air Force. The committee is in 
recess.
    [Whereupon, at 11:01 a.m., Wednesday, March 11, the 
subcommittee was recessed, to reconvene at 10 a.m., Tuesday, 
March 24.]
</pre></body></html>
